<html>
<title> - TRAINING MORE BORDER AGENTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                      TRAINING MORE BORDER AGENTS

=======================================================================

                                HEARING

                               before the

         SUBCOMMITTEE ON MANAGEMENT, INTEGRATION, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2005

                               __________

                           Serial No. 109-15

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



                 U.S. GOVERNMENT PRINTING OFFICE

23-097                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

?

                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. Defazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

                                 ______

         Subcommittee on Management, Integration, and Oversight

                     Mike Rogers, Alabama, Chairman

Christopher Shays, Connecticut       Kendrick B. Meek, Florida
John Linder, Georgia                 Edward J. Markey, Massachusetts
Tom Davis, Virginia                  Zoe Lofgren, California
Katherine Harris, Florida            Sheila Jackson-Lee, Texas
Dave G. Reichert, Washington         Donna M. Christensen, U.S. Virgin 
Michael McCaul, Texas                Islands
Charlie Dent, Pennsylvania           Bennie G. Thompson, Mississippi Ex 
Christopher Cox, California Ex       Officio
Officio

                                  (II)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Management, 
  Integration, and Oversight.....................................     1
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Integration, and Oversight.........................     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security
  Oral Statement.................................................    15
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................    17
The Honorable Donna Christensen, a Delegate in Congress From the 
  U.S. Virgin Islands............................................    20
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    47
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    18
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the States of New Jersey..................................    22

                               WITNESSES

Panel I
Chief Thomas Walters, Assistant Commissioner for Training and 
  Development, Bureau of Customs and Border Protection, 
  Department of Homeland Security
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mrs. Connie Patrick, Director, Federal Law Enforcement Training 
  Center, Department of Homeland Security
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

Panel II
Mr. T.J. Bonner, President, National Border Patrol Council
  Oral Statement.................................................    31
  Prepared Statement.............................................    33
Mr. Gary Jackson, President, Blackwater USA
  Oral Statement.................................................    35
  Prepared Statement.............................................    37

                                APPENDIX

Questions for Mrs. Connie Patrick:
  Questions from the Honorable Mike Rogers.......................    57
  Questions from the Honorable Bennie Thompson...................    58


                      TRAINING MORE BORDER AGENTS

                              ----------                              


                         Tuesday, May 24, 2005

                          House of Representatives,
                        Subcommittee on Management,
                        Integration, and Oversight,
                            Committee on Homeland Security,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 210, Cannon House Office Building, Hon. Mike Rogers 
[chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Cox, McCaul, Meek, 
Thompson, Pascrell, Christensen, and Jackson-Lee.
    Mr. Rogers. [Presiding.] This Committee on Homeland 
Security's Subcommittee on Management, Integration, and 
Oversight, will come to order.
    I want to thank our witnesses first for taking the time out 
of their schedules to be with us here today.
    We are holding this hearing to examine how the Department 
of Homeland Security can hire and train 2,000 new Border Patrol 
agents. We are also interested in finding out how much this 
will cost.
    Last week, under the leadership of Chairman Cox, the House 
passed the first Department of Homeland Security authorization 
bill. This legislation included specific authorization for the 
Department to hire the 2,000 Border Patrol agents.
    In my view, all of these agents are necessary to help 
secure our borders, and they must be hired as quickly as 
possible. But it is also important to hear from the Department 
about its capacity to hire these new agents and determine 
exactly how much they will cost to train.
    Recently, the subcommittee's Ranking Member, Mr. Meek, and 
I wrote Secretary Chertoff requesting a detailed breakdown of 
the cost involved in hiring and training new agents. We 
specifically asked about the cost of recruitment, salaries, 
training, lodging, meals, training facilities, instructors, and 
equipment, among other things.
    Although the Department has not yet submitted its official 
response, DHS did submit some preliminary figures to us last 
Friday evening. We will explore those dollar figures with our 
witnesses today.
    We will also discuss the Federal Law Enforcement Training 
Center and explore how many agents the facility can train per 
year. We would also like to hear about the Center's current 
training capacity and determine how much it will cost to expand 
the Center to accommodate a significant increase in training. 
We need to ensure the best possible training for Border Patrol 
agents while safeguarding taxpayer dollars.
    To address these issues, we are pleased to have on our 
first panel, Chief Thomas Walters, the Assistant Commissioner 
of Training and Development at the Bureau of Customs and Border 
Protection, and we will also hear from Director Connie Patrick, 
from the Federal Law Enforcement Training Center.
    Our second panel will include Mr. T.J. Bonner, the 
President of National Border Patrol Council, and Mr. Gary 
Jackson, the President of Blackwater USA. Blackwater is a 
private tactical training firm that has trained over 50,000 law 
enforcement, military, and civilian personnel.
    We thank you for being here and look forward to your 
testimony.
    And with that, I will yield to my colleague from Florida, 
the Ranking Member, Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman. I want to thank you for 
calling this hearing today on the DHS's ability to increase 
training capacity for Border Patrol agents.
    And to our witnesses, I want to welcome you to the 
subcommittee also.
    It was my pleasure to join you, Mr. Chairman, on the letter 
to DHS in an attempt to get real numbers for training Border 
Patrol agents. Recently, the Department provided an unofficial 
response, and in that response they stated that the cost was 
$179,000 per person to train a civilian to be a Border Patrol 
agent.
    Mr. Chairman, we need to take a serious look at that 
number. As an oversight subcommittee, we have the 
responsibility to make sure that the costs for training a 
Border Patrol agent conforms with the same and similar costs 
and time for other agencies.
    But that kind of comparison only tells half of the story. 
To assess the training program, we cannot begin and end with an 
examination of cost alone. We must also look at the contents of 
training itself.
    Mr. Chairman, it does not include the training assessment 
of the terrain and vulnerability of each part of the American 
landscape.
    In addition to the Southwest, we must include the northern 
border, the Gulf of Mexico and the Florida Keys to ensure that 
the Border Patrol can protect every part of our borders.
    Mr. Chairman, I hope our witnesses here today can explain 
how the new risks and vulnerabilities experienced by this 
nation and the great importance of border security have played 
in the role in the development of a training program that 
supports and promotes and facilitates the national Border 
Patrol strategy.
    Mr. Chairman, if there is not a direct link between 
training and the Border Patrol strategy, then we have to do a 
lot of work in this subcommittee also working with the 
Department to protect the American people.
    Finally, Mr. Chairman, the purpose of this hearing is to 
examine the federal law enforcement training capacity. Let me 
say from the outset that if we determine from this hearing that 
the capacity of the training system is not standing within 
principles of the Congress and what the American people 
deserve, then we should make sure again, Mr. Chairman, that we 
work with this agency in making sure that we put forth the best 
training for these Border Patrol officers as much as possible 
and as soon as possible.
    Again, I want to thank you, Mr. Chairman, for calling the 
hearing, and I look forward to hearing from our witnesses.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for 
any statement he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman. Like you 
and the Ranking Member, I am happy that we are here for this 
hearing. As you know, Border Patrol is our key front line 
support for protecting our borders.
    As part of the Intelligence Reform and Terrorism Prevention 
Act of 2004, Congress authorized the hiring of 2,000 additional 
Border Patrol agents annually for fiscal years 2006 through 
2010. Recently, this committee authorized $1.9 billion for 
border security, including the hiring of 2,000 new Border 
Patrol agents in the 2006 DHS authorization.
    The Border Patrol within the U.S. Customs and border 
protection at DHS, is responsible for patrolling the border 
areas of the United States between the ports of entry and 
preventing terrorists and terrorists' weapons as well as 
undocumented immigrants in cargo from crossing the border.
    In a post-9/11 world, the Border Patrol is our first 
defense at the border against terrorists hoping to cross into 
this country and cause harm.
    Mr. Chairman, the following priorities must be fulfilled if 
we are to adequately address this problem. First, the 
administration must employ more agents as well as consider 
increasing the number of administrative and support personnel 
so that the agents we have can do their job as trained. Second, 
it must use the technology necessary to monitor every mile of 
the border 24 hours and 7 days a week. And using technology, we 
must examine the force multiplier effect that technology can 
provide.
    Lastly, most important, Mr. Chairman, this administration 
must have a comprehensive Border Patrol strategy. The 
Department of Homeland Security must develop a Border Patrol 
strategy that reflects the threats and vulnerabilities this 
nation faces from terrorists.
    Today, the democratic staff will release a report that 
examines the failure of the current border security strategy. 
This report highlights the staffing and technology deficiencies 
in the administration's current border priorities. I hope that 
the report will allow the committee to better assess how we can 
help the men and women of the Border Patrol do their job of 
securing our nation's borders.
    I want to thank you for calling this hearing, and I look 
forward to hearing from our witnesses today.

 Prepared Statement by the Honorable Christopher Cox, a Representative 
 in Congress From the State of California, and Chairman, Committee on 
                           Homeland Security

    Thank you, Mr. Chairman. Today's hearing is focused on the process 
and costs associated with hiring, training and otherwise preparing new 
Border Patrol agents. This is an especially timely hearing given that 
the Department of Homeland Security Authorization Act for 2006 was 
passed by the House of Representatives last week, which authorizes 
funding for hiring an additional 2,000 Border Patrol agents next year.
    America's vast land borders are the longest undefended and 
undisputed borders in the world. Our borders are the gateway for 
billions of dollars in commercial trade, as well as for millions of 
visitors. These same borders can be exploited by terrorists seeking to 
enter the U.S. or transport weapons of mass destruction. The homeland 
security presence must be intensified on the border to deter and 
apprehend potential terrorists.
    With approximately 10,800 agents on board presently, the Border 
Patrol has limited ability to provide coverage and response 
capabilities along the entire border. Additional agents are an 
important factor in enhancing such security, although they are just one 
part of the broader border security strategy we must deploy.
    As part of this hearing, Members will have an opportunity to gain a 
greater understanding of the process and costs of training Border 
Patrol agents at the Federal Law Enforcement Training Center (FLETC), 
as well as the effectiveness of the current training regiment in 
preparing these agents for defending the border against the terrorist 
threat.
    With the hiring of thousands of new agents over the next several 
years, it is critically important that we make sure that such training 
is done in the most cost-effective manner possible. We also need to 
make sure that we are focusing on the right tasks.
    On May 19, 2004, CBP Commissioner Robert Bonner gave a speech at 
the opening of the Border Patrol Academy in Artesia, New Mexico. The 
Commissioner highlighted new components of the training program, which 
included training on ``sophisticated detection, sensoring, and 
surveillance technology;'' biometric training in IDENT and IAFIS; 
interrogation techniques; and other ``anti-terrorism'' training.
    Customs and Border Protection also has an Anti-terrorism Training 
Team, which operates in D.C. and Laredo, Texas. In 2004, Border Patrol 
agents received training on detecting terrorist trends and fraudulent 
documents. The issue of terrorist travel has been a major focus of this 
Committee over the past two years, and I'm interested in learning more 
about what training is being provided in this area and how it is 
coordinated with FLETC training and other DHS programs.
    I look forward to further discussing with each of our witnesses the 
existing training capabilities and the counter-terrorism skills that 
this training is instilling among the new agents, so that we can truly 
maximize the opportunities to prevent terrorists from entering the 
United States.
    I'd like to thank our witnesses for their appearance today and look 
forward to their testimony.

    Mr. Rogers. I thank the gentleman.
    Again, I want to say how pleased we are to have both of you 
here, very distinguished guests, and we know you are going to 
be very informative.
    I would point out that your full statements will be 
submitted for the record. If you just want to provide a summary 
during these introductory remarks, that is fine.
    And now the Chair calls the first panel and recognizes 
Chief Thomas Walters, Assistant Commissioner for Training and 
Development at the Bureau of Customs and Border Protection.
    The floor is yours.

 STATEMENT OF CHIEF THOMAS WALTERS, ASSISTANT COMMISSIONER FOR 
    TRAINING AND DEVELOPMENT, BUREAU OF CUSTOMS AND BORDER 
          PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Walters. Thank you, Chairman Rogers, Ranking Member 
Meek and distinguished members of the subcommittee. I am here 
today to discuss the capacity of CBP and FLETC partnership to 
train the quality and quantity of new Border Patrol agents that 
are needed.
    At the core of my comments today, and the reason we train, 
is the mission of the Border Patrol. Right now it is just after 
1400 hours on Tuesday, May 24, and as I speak to you, somewhere 
out along the border there is a lone agent taking 5 or 10 or 
perhaps as many as 50 aliens into custody by herself.
    In a large railroad yard somewhere along the border, north 
or south, another team of agents is dodging in-bound and out-
bound trains while they cross the rails and climb up and down 
every car in a long trail of rail cars searching for every 
little hiding place in a freight train that will soon head into 
our nation's interior.
    And as I speak to you, hundreds of agents are interviewing 
the aliens they have apprehended in the Spanish language and 
are making decisions about the status of those aliens under the 
immigration laws and other laws based on these Spanish language 
interviews.
    Other agents are out there flying helicopters, some are 
checking electronic databases and some, having just noticed 
some recently turned over pebbles or crushed grass somewhere 
along the border fence, are preparing to use the tracking 
skills they learned over the years, and they will track groups 
of illegal entrants through the deserts or forests until they 
catch them.
    By the way, as I speak to you, more than half of the 11,000 
agents that wear the uniform are just now waking up and will 
soon be getting ready to report for duty for the work shift to 
cover the hours of darkness where most of our illegal 
incursions occur and while most of our citizens, including 
myself, will be resting comfortably at home.
    It is my task to make sure new agents are prepared to 
operate in the exotic legal cultural and physical environments 
that exist along our borders, north and south, east and west. 
It is my job to establish and maintain the continuous 
communication and interactions between the training we deliver 
and the tasks in the operating environment and the new tools 
and new technology added to our inventory and the changes in 
law, policy and procedures and tactics and the new directions 
we get from DHS and CBP leadership.
    We build our basic training according to the best practices 
established in the academic community. We use a formal 
instructional system design and evaluation process that begins 
with a careful and continuous examination and assessment of the 
tasks that are performed in the field. We train to task.
    We test how well the trainee performs, and we test the 
effectiveness of our own training methods and our own 
instructors. We evaluate the overall effectiveness of our 
training by training's real gold standard: How effectively are 
new agents performing their duties in the operating 
environment?
    We take our responsibility to train seriously, and our 
investment in training reflects that reality. Our basic 
training program for Border Patrol agents is an intensive 10-
month formal training process, roughly divided in half between 
in-residence training at the Border Patrol Academy and a post-
graduate program that includes classroom and on-the-job 
training in the Border Patrol sectors.
    At the heart of our basic training philosophy is the 
importance of bringing experienced Border Patrol agents into 
the training process to give context and to give credibility to 
the subjects we present and just as importantly to fuel the 
engine that makes the Border Patrol so effective in the many 
environments in which they work, and that engine is esprit de 
corps.
    Our practice of bringing field agents to the Academy 
benefits the new trainees, but it is also a career development 
opportunity for the field agents as well. While on assignment 
to the Academy as instructors, field agents increase their 
knowledge and skills in the areas they teach, become better 
prepared to participate as sector instructors in the post-
graduate portion of basic training and learn and get practical 
experience in supervision and leadership.
    Since 1977, we have worked in partnership with the Federal 
Law Enforcement Training Center to ensure that Border Patrol 
training is done professionally and that the return on our 
basic training investment is a positive one. Because of the 
Federal Law Enforcement Training Center, CBP and other 
organizations participating in the FLETC do not have to devote 
resources to building and managing training facilities and 
acquiring related training services.
    Because the Federal Law Enforcement Training exists, the 
participating organizations do not have to continuously open 
and close training facilities as missions and budgets evolve, 
and because the Federal Law Enforcement Training Center exists, 
CBP and the other participating agencies can access law 
enforcement expertise from other organizations as needed.
    I thank the members for giving me the opportunity to 
address this subcommittee today and stand ready to respond to 
any questions you might have. Thank you.
    [The statement of Mr. Walters follows:]

             Prepared Statement of Chief Thomas J. Walters

    Chairman Rogers, Ranking Member Meek, and Distinguished Committee 
Members, I am honored to appear before you today to discuss the 
successes and challenges of training more Border Patrol agents and to 
increasing training capacity more effectively, as demonstrated by the 
operations and law enforcement initiatives of the Department of 
Homeland Security, Customs and Border Protection (CBP), and the Federal 
Law Enforcement Training Center.
    CBP, as the guardian of the Nation's borders, safeguards the 
homeland--foremost, by protecting the American public against 
terrorists and the instruments of terror; while at the same time 
enforcing the laws of the United States and fostering the Nation's 
economic security through lawful travel and trade. Contributing to all 
this is the Border Patrol's time-honored duty of interdicting illegal 
aliens and drugs and those who attempt to smuggle them across our 
borders. We cannot protect against the entry of terrorists and the 
instruments of terror without also reducing illegal migration across 
our borders. And this can only occur if Border Patrol agents are 
properly trained.
    CBP Border Patrol's National Strategy has made a centralized chain 
of command at Headquarters a priority and has increased the 
effectiveness of our agents by using intelligence driven operations to 
deploy our mobile resources. The Strategy recognizes that border 
awareness and cooperation with our law enforcement partners is 
critical. CBP is committed to creating the right combination of 
personnel, technology, and infrastructure to gain operational control 
of our borders. Recognizing that we cannot control our borders by 
merely enforcing at the ``line,'' our strategy incorporates a 
``defense-in-depth'' component, to include transportation checks away 
from the physical border as well as checkpoints. We will not be able to 
achieve control of the border unless our apprehensions demonstrate the 
futility of attempting to enter the United States illegally. The 
additional agents used to man these checkpoints, blended with 
infrastructure and technology, increase the probability of arrest of 
those who attempt to circumvent primary inspection at the checkpoint. 
Permanent checkpoints allow CBP Border Patrol to establish an important 
second layer of defense.
    The foundation of our border enforcement effort is the uniformed 
officer in the field and the training he/she receives.

Training
    DHS has established a comprehensive training plan for our CBP 
Officers, Agriculture Specialists, and Border Patrol Agents. Carrying 
out the Nation's homeland security mission requires a workforce with 
the necessary skills and proficiency to fight terrorist threats while 
effectively carrying out our traditional missions of interdicting 
drugs, intercepting illegal immigrants, and facilitating legitimate 
trade and travel.

BP Academy in Artesia, New Mexico
    Commissioner Robert C. Bonner dedicated the New Border Patrol 
Academy in Artesia, New Mexico on October 21, 2004. The Federal Law 
Enforcement Training Center (FLETC) hosts the Border Patrol Academy. 
This training facility consolidates all Border Patrol training assets 
at a primary facility, thus creating a cost-efficient, totally 
encompassed learning environment with regard to Border Patrol agent 
education. In the past, Border Patrol agents were trained in several 
different locations, including New Mexico, Texas, Alabama, Georgia and 
South Carolina. FLETC was an instrumental partner in our consolidation 
effort and we continue to work closely with them on issues affecting 
the Border Patrol Academy.
    The consolidation of educational assets and expertise at a 
centralized location is an extraordinary benefit to both the agents and 
the agency. The agents receive specialized training and the agency 
receives a higher caliber of employees.
    The Border Patrol Academy is responsible for addressing the basic 
and advanced training needs for more than 11,000 Border Patrol agents 
nationwide. New Border Patrol agents must complete a rigorous, 19-week 
training program that includes courses in anti-terrorism, federal 
Immigration and anti-drug laws, criminal law and statutory authority, 
behavioral science, intensive Spanish language training, Border Patrol 
Operations, care and use of firearms, physical training and motor 
vehicle operations. The Academy's New Mexico location provides a unique 
environment similar to the Southwest border where many Border Patrol 
agents are initially assigned.
    Combining all of our tested methodologies and best practices under 
one roof allows us to more effectively and efficiently provide an 
advanced training environment that enables our agents to reach that 
state of readiness, that state of professionalism their fellow agents 
can depend on in the field and, more importantly, the American people 
depend on at home.
    After graduating from the basic academy, probationary agents are 
required to complete a post-academy course of study. The Post Academy 
Training Program is committed to the continued basic training 
development of probationary agents for the U. S. Border Patrol. The 
program is managed and coordinated by the Post Academy Coordinator. 
Post Academy schedules are developed and are used as a weekly guide for 
instructional topics and assignments. The Post Academy examinations are 
administered at two intervals after basic training graduation, during 
the 28th and 40th week of the trainee's service. The exams consist of 
two parts, both of which are taken at each of the two intervals: LAW--a 
comprehensive written exam in immigration, criminal, statutory, and 
nationality law; and SPANISH--a comprehensive combination oral and 
written Spanish exam, administered by a Post Academy Examination Review 
Board, upon completion of the law portion.
    Another important part of our basic training is our use of 
practical exercises throughout a trainee's 19 weeks at the Academy. 
These exercises require trainees to practice observational skills and 
questioning skills, while applying their job knowledge of documentation 
requirements, immigration issues, checkpoint operations, and vehicle 
stops.
    CBP realized it needed to unify and integrate its existing 
operations and workforce. While new officers and agents receive a wide 
range of intensive training during their first two years, journeyman 
agents complete training based on operational priorities and workforce 
needs.
    Agents receive formal instruction at their stations in Non 
Intrusive Inspection (NII) devices, including personal radiation 
detectors, which are utilized at all Border Patrol checkpoints. This 
field training is being incorporated into the Basic Academy curriculum 
and should be in the classroom materials in Artesia very soon. 
Expedited Removal training has been a vital tool in addressing the 
increased smuggling of Other than Mexicans (OTMs). Classes have been 
implemented for agents, train-the-trainer, and supervisory training on 
signatory authority. This training has recently expanded and is 
occurring in selected areas throughout the Southwest border in an 
effort to disrupt OTM smuggling and increase the number of aliens 
removed.
    One of the specific areas addressed in the 9/11 Commission Report 
was fraudulent documents training. Under our new curriculum, basic 
trainees receive fraudulent document training at the Academy that 
culminates with a graded practical exercise during which trainees 
examine characteristics of unique documents and determine if the 
documents are genuine, counterfeit or altered. The course highlights 
fraud indicators that may be present in evaluating any document for 
authenticity. Security features of U.S. entry documents and imposter 
detection are emphasized as well. Additionally, Fraudulent Document 
training for all Border Patrol agents is being conducted with a 2-day 
Anti-Terrorism course. This course will build on the instruction given 
at the Border Patrol Academy that integrates CBP directives with the 
agent's job responsibilities as the first line of defense.
    Immigration and Customs Enforcement's Forensic Document Laboratory 
(FDL) teaches a 3-day intensive train the trainer session for the CBP 
Office of Field Operations and CBP Office of Border Patrol on 
fraudulent document detection. The FDL assists our frontline officers 
with any forensic document analysis, provides training, and issues 
intelligence alerts about current fraudulent document trends as needed, 
and does so on a recurring basis. A Pocket Guide Reference on Document 
Security Features and Printing Techniques has been provided to all 
frontline officers. CBP constantly evaluates and adjusts training in 
the field to meet the current operational need.
    CBP has participated in Master Exercise Practitioner (MEP) training 
conducted by FEMA. As certified MEPs, Border Patrol agents have worked 
with CBP Officers at the Ports of Entry and other agencies to develop 
and deliver tabletop, functional, and full-scale exercises designed to 
detect, deter, or respond to terrorist threats and incidents.
    CBP developed a Counter-Terrorism Response (CTR) protocol and 
training to address questioning and detaining possible terrorist 
subjects. CBP also has a Detecting Deception and Eliciting Responses 
(DDER) Course which is advanced training in non-coercive interviewing 
techniques and includes a day of classroom lectures on such topics as 
Behavioral Analysis and Interviewing Strategies, followed by 2 days of 
CBP specific ``role playing'' exercises. The primary focus of the DDER 
course is to enhance questioning skills and to build upon the officers' 
arsenal of interviewing techniques while confronting potential 
terrorists. The Office of Training and Development is focused on 
expanding these courses throughout CBP as quickly as possible.
    CBP Office of Training and Development is working to validate 
Supervisor Technical Training and other Leadership, Management, 
Executive, and Communications courses that Border Patrol staff 
currently use. This effort will assist CBP in building a more coherent 
program that benefits all facets of our agency.

Conclusion
    We have made much progress to deny terrorists the ability to travel 
freely into the U.S., identify potential alien smugglers, and constrain 
the mobility of known and suspected terrorists. In addition to the 
initiatives described above, we are working aggressively with our 
international partners to improve standards for travel documents, 
enhance aviation safety and port security, and speed the exchange of 
terrorist identifying information. DHS understands that we must engage 
in a global effort each day, through collaboration, information sharing 
and ongoing dialogue to bring the weight of our collective law 
enforcement and intelligence capabilities to bear against those who 
seek to do us harm.
    I would be happy to answer any questions you have at this time.

    Mr. Rogers. Thank you, Chief Walters.
    The Chair now recognizes Ms. Connie Patrick, the Director 
of the Federal Law Enforcement Training Center.
    Ms. Patrick?

STATEMENT OF CONNIE PATRICK, DIRECTOR, FEDERAL LAW ENFORCEMENT 
        TRAINING CENTER, DEPARTMENT OF HOMELAND SECURITY

    Mrs. Patrick. Thank you.
    Good afternoon, Chairman Rogers, Ranking Member Meek and 
distinguished members of the subcommittee. It is a pleasure to 
be with you here today to discuss training more Border Patrol 
agents: How the Department of Homeland Security can increase 
training capacity most effectively.
    Seated behind me are the senior managers of the Federal Law 
Enforcement Training Center who have joined me today in the 
first row here.
    I want to acknowledge the generous support that the 
Congress has long extended to the FLETC. I stand ready to work 
with you and direct the FLETC toward successful completion of 
the objectives set forth by the administration and Congress in 
the protection of our nation.
    The FLETC's primary mission is law enforcement training, 
and each dollar provided to the FLETC goes for the use and 
benefit of all the 81 federal agencies that participate as 
FLETC partners.
    The FLETC was founded on two guiding principles: quality in 
training and economies of scale. Neither of these can be 
achieved without the cooperation of its partner organizations 
and the concept of consolidated training, which means shared 
training knowledge and experience, better use of available 
funds and law enforcement training uniformity and 
standardization.
    During FLETC's 35-year history, more than 600,000 agents 
and officers across all three branches of government have 
graduated from training programs conducted at the FLETC. This 
training includes mandatory requirements and other core 
elements such as ethics, firearms, vehicle operations, physical 
training, and investigative skills and techniques.
    A consolidated approach provides the opportunity to deliver 
high-quality training using state-of-the-art facilities, a 
permanent cadre of trained instructors, and consistency of 
training content and quality. The daily interaction and 
training of students from different agencies encourages 
networking and agency cooperation. In addition to the permanent 
cadre of trained instructors, partner organizations also assign 
instructors to FLETC on a rotational basis.
    The congressional authorization of rehired annuitant 
authority has also helped to provide an optimum mix of 
instructional staff. This combination of permanent detailed and 
recently retired staff provide a balance of experience and 
fresh insights from the field.
    Training at the FLETC is conducted via a long-standing 
shared funding concept. Our partners pay for their travel, 
their meals and lodging for their trainees, and FLETC provides 
for the cost of basic tuition through directed appropriations 
from the Congress.
    This shared funding concept ensures that newly hired 
federal law enforcement agents and officers are assured a 
standardized training regardless of the size or responsibility 
of their employing agencies.
    Mr. Chairman, with the creation of the Department of 
Homeland Security, we entered a new era in law enforcement. The 
FLETC is an example of the spirit of cooperation and 
consolidation intended by the DHS legislation.
    The FLETC also provides critical state, local, tribal and 
international law enforcement training activities that 
compliment the mission to secure our homeland.
    Under departmental leadership, FLETC works closely with all 
elements of the DHS as well as other departments and 
independent agencies with law enforcement authority. FLETC, as 
a component of DHS, supports unity of command and the 
coordination and efficiencies being sought in the public law 
that created the Department.
    The FLETC continues to demonstrate the ability to rapidly 
respond to emerging needs in a fiscally responsible manner 
while maintaining the integrity and quality of training. For 
example, in fiscal year 2004, the Border Patrol requested 
consolidation of all of their training at the FLETC's Artesia, 
New Mexico facility. The Border Patrol and the FLETC worked 
cooperatively to accomplish this task within 90 days.
    Also, following 9/11 the FLETC trained thousands of federal 
air marshals while significantly increasing training levels for 
all its other partner organizations. Over the years, FLETC has 
experienced periods of substantial growth in the training 
request by its partner organizations, and using innovation and 
imagination to maximize resources, these increases have been 
accommodated. That ability continues.
    Temporary adjustments, such as extending the training work 
week from 5 days to 6 days and less than optimal lodging 
options provide significant increases to training capacity at 
the FLETC's Artesia facility.
    FLETC successfully implemented the 6-day training week for 
over 2 years to meet the 9/11 training needs. However, 
extraordinary measures such as 6-day training weeks are 
difficult to sustain, take a toll on both staff and facilities 
and are costly.
    In closing, let me assure you that DHS and FLETC are 
committed to providing the highest quality law enforcement 
training at the lowest possible cost. Substantial savings are 
being realized through the operation of consolidated training 
sites.
    I also want to commend the remarkable staff at CBP Border 
Patrol and FLETC, as well as our partner organizations who have 
contributed so much to the success of consolidated training. 
Their enthusiasm, flexibility and talented assistants will 
continue to be of great benefit.
    Mr. Chairman, we invite you or any member of the committee 
to visit any of the FLETC training sites.
    And, Mr. Chairman and members of the subcommittee, this 
concludes my prepared statement, and I will be pleased to 
answer any questions you may have.
    [The statement of Mrs. Patrick follows:]

                Prepared Statement of Connie L. Patrick

    Good afternoon Chairman Rogers, Ranking Member Meek, and 
distinguished members of the Subcommittee. It is a pleasure to be with 
you today to discuss ``Training More Border Patrol Agents: How the 
Department of Homeland Security Can Increase Training Capacity Most 
Effectively.'' Seated behind me are the senior managers of Federal Law 
Enforcement Training Center (FLETC) who have joined me today.

OPENING REMARKS
    I want to acknowledge the generous support the Congress has long 
extended to the FLETC. I stand ready to work with you and direct the 
FLETC towards successful completion of the objectives set forth by the 
Administration and Congress in the protection of our national security.
    The FLETC's primary mission is law enforcement training, and each 
dollar provided to FLETC goes for the use and benefit of all of the 81 
federal agencies that participate as FLETC partners. The FLETC was 
founded on two guiding principles: quality in training and economies of 
scale. Neither of these can be achieved without the cooperation of its 
partner organizations in the concept of consolidated training, which 
means shared training knowledge and experience, better use of available 
funds, and law enforcement training uniformity and standardization. 
During FLETC's 35-year history, more than 600,000 agents and officers, 
across all three branches of government, have graduated from training 
programs conducted at FLETC. This training includes mandatory 
requirements and other core elements, such as ethics, firearms, vehicle 
operations, physical training, and investigative skills and techniques.
    The consolidated approach provides the opportunity to deliver high-
quality training using state-of-the-art facilities, a permanent cadre 
of trained instructors, and consistency of training content and 
quality. The daily interaction and training of students from different 
agencies encourages networking and agency cooperation. In addition to 
the permanent cadre of trained instructors, partner organizations 
assign instructors to FLETC on a rotational basis. The Congressional 
authorization of rehired annuitant authority has helped to provide an 
optimum mix of instructional staff. This combination of permanent, 
detailed, and recently retired staff provides a balance of experience 
and fresh insights from the field. Training at the FLETC is conducted 
via a long-standing, shared-funding concept. Our partners pay for 
travel, meals, and lodging for their trainees; and FLETC provides for 
the cost of basic tuition through direct appropriations from the 
Congress. This shared-funding concept ensures that newly hired federal 
law enforcement agents and officers are assured of standardized 
training, regardless of the size or responsibility of their employing 
agencies.
    Mr. Chairman, with the creation of the Department of Homeland 
Security, we entered a new era in law enforcement. The FLETC is an 
example of the spirit of cooperation and consolidation intended by the 
DHS legislation. The FLETC also provides critical state, local, tribal, 
and international law enforcement training activities that complement 
the mission to secure our homeland.
    Under Departmental leadership, FLETC works closely with all 
elements of the DHS, as well as all other Departments and independent 
agencies with law enforcement authority. FLETC, as a component of DHS, 
supports unity of command and the coordination and efficiency themes 
sought in the public law that created the Department.
    The FLETC continues to demonstrate the ability to rapidly respond 
to emerging needs in a fiscally responsible manner, while maintaining 
the integrity and quality of training. For example, in fiscal year 
2004, the Border Patrol requested consolidation of all of their 
training at the FLETC's Artesia, NM facility. The Border Patrol and 
FLETC worked cooperatively to accomplish this task within 90 days. 
Also, following 9/11, the FLETC trained thousands of Federal Air 
Marshals while significantly increasing training levels for its other 
partner organizations.
    Over the years, the FLETC has experienced periods of substantial 
growth in the training requests by its partner organizations. Using 
innovation and imagination to maximize resources, these increases have 
been accommodated; that ability continues. Temporary adjustments, such 
as extending the training work week from five days to six days and less 
than optimal lodging options, provide significant increases to the 
training capacity at the FLETC's Artesia facility. FLETC successfully 
implemented the six-day training week for over two years to meet the 9/
11 training needs. However, extraordinary measures, such as a six-day 
training work week, are difficult to sustain, take a toll on both staff 
and facilities, and are costly.

CLOSING
    In closing, let me assure you that DHS and FLETC are committed to 
providing the highest quality law enforcement training at the lowest 
possible cost. Substantial savings are being realized through the 
operation of consolidated training sites. We are also aware of the 
important opportunities and challenges that remain ahead.
    I also want to publicly commend the remarkable staff at CBP, Border 
Patrol, and FLETC, as well as our partner organizations who have 
contributed so much to the success of consolidated training. Their 
enthusiasm, flexibility, and talented assistance will continue to be of 
great benefit.
    Mr. Chairman, we invite you and any member of the Committee to 
visit any of the FLETC training facilities.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be pleased to answer any questions you may 
have at this time.

    Mr. Rogers. Excellent. Thank you.
    I want to thank both of you for your statements. I would 
like to start off with some questions.
    In anticipation of this hearing, as I said in my statement, 
Ranking Member Meek and I inquired about these training costs. 
It has kind of been a hard number for us to get our arms around 
exactly how much it costs to train the Border Patrol officers. 
All of us in the Congress are determined to make sure that we 
have--our Border Patrol officers have whatever training they 
need and that we do it right.
    Now, having said that, we have gotten different numbers as 
to what it costs. We have been given a number by the 
Congressional Budget Office of $150,000 per agent, by the 
Administration of $175,000, by the Department of Homeland 
Security of $179,000, and the homeland security appropriations 
bill had $189,000. So you can see it goes anywhere from 
$150,000 to right at $190,000.
    But for the sake of this hearing, since you are here, Chief 
Walters, we will use your number of $179,000.
    I find that number just staggering, frankly. As I 
understand it, it is a 5-week in-house training program, and 
from your statement I understand there is another--I am sorry, 
5-month training program.
    Mr. Walters. Right.
    Mr. Rogers. And there is another 5 months of field 
training; is that right?
    Mr. Walters. That is correct.
    Mr. Rogers. When I thought about that number it just seemed 
so--because that does not include, as I understand it, any 
construction monies. That is just for the training. That is 
just incredible.
    So I had my staff yesterday--as I was flying into 
Washington, it occurred to me that we should compare this to 
some costs that people can relate to. So I had my staff contact 
the Administration--or the Admissions Office at Harvard 
University to get the costs for room and board, tuition and 
fees, the whole shooting match at Harvard, and it is just under 
$40,000 per year. And what that is telling me is that it is 
going to cost more to train a Border Patrol officer in a 10-
month program than it is to get a 4-year degree at Harvard 
University.
    Explain to me how that is, Chief Walters.
    Mr. Walters. Okay. What that cost includes is to recruit, 
hire, and train. So the recruiting and hiring fees, of course, 
that is not something that Harvard would worry about. It also 
includes the equipment for a Border Patrol agent, one-third of 
a car, one pistol, the leather, the uniforms. It also includes 
an estimated rental for office space and a computer and all 
those other costs. We can at some future time satisfy you, I 
think, that this is a reasonable cost.
    But it is expensive, and that is why DHS, the Commissioner, 
and the organization is looking carefully at the right mix of 
agents and infrastructure, agents and the tools that they use, 
things like helicopters and sensors and all those things that 
you have heard us talk about. It is a high number, and it is a 
number that has to be balanced, but I think we can satisfy you 
as to what our thinking has been in order to arrive at that 
number.
    Mr. Rogers. Well, I look forward to getting those details, 
because it does seem--you know, when you look at a GS-7 pay and 
assume that they came in at a GS-7, for the year that is 
$38,000. A third of a car might be $10,000. I mean, as I try to 
mentally go through the exercise of adding it up, it does not, 
so I do look forward to getting some details.
    Ms. Patrick, I would like to ask you, at FLETC, are you at 
maximum capacity already on training Border Patrol officers, or 
could you absorb more if they were sent to you without any 
extra money?
    Mrs. Patrick. We could absorb--As far as our chokepoint 
right now at our dormitory, we could absorb more, but they 
would have to double bunk. We would have to add more bunks into 
a single room. But up to certain numbers we can absorb.
    Mr. Rogers. What would you estimate that number to be?
    Mrs. Patrick. Well, right now with the supplemental that 
was just provided with the extra 500, right now with their base 
of about 700 plus the 500 that were in the supplemental, right 
now we were funded and we can deal with the current, that would 
be 1,400. In addition to that, I have numbers--.
    Mr. Rogers. But now in order to do that, you would need the 
money that was in the supplemental.
    Mrs. Patrick. Right.
    Mr. Rogers. The $189,000 per agent.
    Mrs. Patrick. No. Actually, what was provided to FLETC for 
that was $1,882,000.
    Mr. Rogers. For 500 more officers.
    Mrs. Patrick. For 500 more. And we can do that without any 
additional facilities.
    Mr. Rogers. Okay.
    Mrs. Patrick. But if you add to that, it will require some 
additional capacities that would be accomplished over about a 
year period of time.
    Mr. Rogers. But you could do those without any structural 
enhancements.
    Mrs. Patrick. Right.
    Mr. Rogers. Okay. My time is up. I look forward to more 
questions in a minute, but at this time I will yield to my 
Ranking Member, Mr. Meek, for any questions he may have.
    Mr. Meek. Thank you, Mr. Chairman. I had an opportunity to 
read both of your statements prior to the meeting and I just 
wanted to let you know that this subcommittee meeting is very 
important to us all and I am pretty sure to the Department.
    There is a great deal of concern about the training. No one 
really wants to criticize the integrity of the training. I know 
that it is at the highest level that it could possibly be. But 
at the same time, we are talking almost $180,000 to train one 
individual, and I understand that that includes vehicles, room 
and board, support staff that I would like to talk further 
about because the information that I have seen does not support 
the increase in support staff as it relates to the training.
    But has the training changed, and I do not know, Chief, 
maybe this is for you, has the training changed since 9/11 of 
adding additional training? That is one question.
    Second question is, why does every Border Patrol officer, 
Customs and Border Patrol Protection officer have to go to one 
place for their in-service training versus a diversity of 
areas? Like I mentioned, the Florida Keys is a different kind 
of border there. The Gulf of Mexico, different kind of effort 
there. If you can answer those two questions, and I have one 
more for you before my time runs out.
    Mr. Walters. Okay. The change for the Border Patrol Academy 
basic training curriculum, and advanced training curriculum, 
and the training we give to our incumbent officers, has been 
significant. We are a new agency now, we are CBP, we are not 
what we used to be. We have a new priority mission, which is 
preventing the entry of terrorists, and our training has 
changed to reflect that reality.
    For instance, we have a new basic training block--8 hours 
of anti-terrorism for basic agents; and for our agents out in 
the field already, we have a 2-day anti-terrorism course for 
our Border Patrol course that is also delivered. Plus an 8 
hours fraudulent documents class which goes to incumbent agents 
as well.
    We have made other changes, and I can tell you in CBP, 
including the Border Patrol Academy, preventing the entry of 
terrorists' weapons is somewhere in virtually all of our 
training modules. Whether it is the law classes or the Spanish 
classes or the PT classes, all of that is in there.
    Your second question was why CBP officers--.
    Mr. Meek. I will remember my second question in a minute--
just joking. The second question was, why does the training--
well, what--.
    Mr. Walters. Why do they have to be located in just--.
    Mr. Meek. Why does it have to be located where it is 
located versus training throughout the United States, 
especially where we have illegal border entry? I mentioned the 
Florida Keys, I mentioned the Gulf of Mexico. Also you have the 
U.S. Canadian border where you have a number of these issues.
    Mr. Walters. We get the best training for our advanced 
officers, those that have already gone through the training 
program, the basic training program, wherever we can find it. 
Sometimes it is at the Federal Law Enforcement Training Center, 
and sometimes it is other locations.
    For instance, we send CBP officers, including Border Patrol 
agents, to a weapons of mass destruction identification school, 
and that is in Washington State. And we have small boat schools 
that we send people to, including the Federal Law Enforcement 
Training Center but also others in Florida. So it is not 
exclusive.
    When we talk about the uniform Border Patrol agent 
refresher training in their core duties that have to do with 
really being a Border Patrol agent, not management or 
supervision, we do try and locate that all in a single location 
and that is because our basic training feeds our advanced 
training, and it has to be in close contact.
    Mr. Meek. Let me just, if I can, Chief and Director 
Patrick, let me just mention something real quick. I know that 
there is an overall training. How much does it cost to train a 
law enforcement officer just basic training, like $23,000 or 
something? How much does it cost just for the basic training, 
not the advanced training that the Chief was talking about?
    Mrs. Patrick. For tuition for one student for the total 
program, $8,734.
    Mr. Meek. Okay. That is to get their certification.
    Mrs. Patrick. That is their tuition cost.
    Mr. Meek. Tuition costs.
    Mrs. Patrick. Right.
    Mr. Meek. And that will get them their certification.
    Mrs. Patrick. Right.
    Mr. Meek. Okay.
    Well, Mr. Chairman, I hope that we can have a second round. 
We do have a number of members here that are attending this 
meeting, but thank you very much for your response to my 
questions.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the chairman of the full 
committee, to the gentleman from California, Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman. This is an exceptionally 
important array of topics, and I am sorry we have just this 
afternoon to delve into some of them.
    Let me begin, Mr. Chairman, where you left off and see if I 
can understand, either from CBP or from the FLETC standpoint, 
how these numbers for recruiting, training, and hiring break 
down.
    Since you were providing the numbers for us, Mr. Walters, I 
wonder if I could ask you this question. What we are looking at 
right now is a combined figure for recruiting, training, 
hiring, all mixed together. If you wash out the recruiting and 
the hiring, what fraction is the training of that total figure?
    Mr. Walters. I can say that the salary and benefits for a 
half a year, not just the pay of GS-7 but all the other pieces 
that we do, the retirement and the--.
    Mr. Cox. Yes, I am just interested in the training figure, 
which would not, presumably, include any salary or benefits.
    Mr. Walters. The basic agent training piece for us is 
$23,118, and that is the one-each cost, and that is things like 
the supplies and the bill-backs or the reimbursables we do with 
the Federal Law Enforcement Training Center. We order printing, 
they do the printing, we reimburse them for the printing, and 
that is sort of a one-each cost. That is what the $23,000 each 
represents.
    Mr. Cox. So is it fair to say that the $20,000 represents 
the training figure? Is that your answer to my question?
    Mr. Walters. There is more to that figure. That is the 
basic one-each cost.
    Mr. Cox. Of the--.
    Mr. Walters. It does not include the instruction costs.
    Mr. Cox.--$179,000 combined figure that you provided to the 
committee for recruiting, hiring, and training, what portion 
would be the training?
    Mr. Walters. You are correct. The $23,118 is the training 
portion of that $179,000 figure.
    Mr. Cox. All right. And just to make sure that we are 
clear, I will do a little quick math and subtract $23,000 from 
$179,000 and get $156,000. The amount for recruiting and hiring 
sum to $156,000; is that right? That would be true if $23,000 
is the training figure.
    Mr. Walters. The full cost of recruit, hire and train is 
$179,000.
    Mr. Cox. Right.
    Mr. Walters. So what you are doing is backing out the 
$23,000 as training and saying that is other than the training 
costs. Is that--.
    Mr. Cox. I am trying to check my math and make sure that we 
are agreed that the cost of training is $23,000, which would 
leave us with $156,000 remaining that we would allocate either 
to recruiting or to hiring.
    Mr. Walters. That is one way of looking at it, yes, sir.
    Mr. Cox. And is that accurate?
    Mr. Walters. That is accurate according to the spreadsheet 
if you divide the $179,000. And that training, of course--I do 
not want to sound overly burdensome on this, but you cannot 
train unless you recruit and hire.
    Mr. Cox. All right. And that is where I am going next. Now, 
of the $156,000, how much is recruiting?
    Mr. Walters. The recruiting, pre-employment, background 
investigation, the medical, sending Border Patrol agents 
through the oral interviews, doing the recording of the 
applicants' application and tracking that is $33,645.
    Mr. Cox. Thirty-three point six, so we will call that 
$34,000. And then I will do some more quick math and subtract 
$34,000 from $156,000 and I get $122,000. So are we then agreed 
that the $122,000 figure applies to hiring?
    Mr. Walters. Yes.
    Mr. Cox. All right. And what is embedded in the $122,000 
that we are calling the hiring costs?
    Mr. Walters. The salary and benefits is another?
    Mr. Cox. The salary for 1 year?
    Mr. Walters. It is a half-year salary and benefits.
    Mr. Cox. Half-year. Okay.
    Mr. Walters. And that is $56,700, so round off to $57,000.
    Mr. Cox. The first-year starting salary for a Border Patrol 
agent is two times $56.7K?
    Mr. Walters. Yes. That is the salary and the benefits.
    Mr. Cox. Okay. And then that leaves us with $122,000 minus 
$57,000, $65,000. And what is the rest of the $65,000, hiring 
costs?
    Mr. Walters. We provide equipment at $45,000 each and other 
support, which is an aggregate cost of things like a computer, 
a telephone, X amount of square footage of office space, some 
portion of furniture and those kinds of issues, one each, for a 
Border Patrol agent.
    Mr. Cox. All right. So by far the largest cost is the 
hiring costs, and the hiring costs include, if I were an 
accountant, what I would call full costs for all allocable 
overhead--certain square footage of the offices desks, 
computers, et cetera. So we are not missing anything when we 
look at that $122,000 figure for hiring. That is the full cost, 
right?
    Mr. Walters. For the hiring piece, yes, sir.
    Mr. Cox. All right. And so to get back to the Chairman's 
initial concern about the training costs and comparing it to 
Harvard University and so on, it really is not as bad it looks 
because it really costs $23,000 to train; is that right?
    Mr. Walters. That is one way to perceive it, yes, sir.
    Mr. Cox. All right. Well, I see that my time is expired. I 
am happy to return to this, but at least we have got some of 
our basic assumptions nailed down.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the Ranking Member of the full 
committee, Mr. Thompson, for any questions.
    Mr. Thompson. Thank you very much.
    Ms. Patrick, how many different agents do you train on 
behalf of--.
    Mrs. Patrick. We train 81 federal agencies as well as 
state, local, and tribal agencies.
    Mr. Thompson. I know it will be time-consuming but can you 
provide us the training costs to this committee of each one of 
those agencies?
    Mrs. Patrick. I can.
    Mr. Thompson. So we can look at the numbers?
    Mrs. Patrick. I could. I will.
    Mr. Thompson. Is it standard and do you include salaries 
and other things in the cost of the other agencies also?
    Mrs. Patrick. No. Actually, our instructors, the shared 
costs that I mentioned in my remarks, we determine how many 
instructors it will take, and we provide half of those 
instructors. So if it requires additional staff, then we would 
have to determine what that would cost FLETC to provide the 
training, and that would be an expense that FLETC would need to 
bear for the cost of providing the training.
    But with our permanent staff, which our total cadre is 
around 1,000 employees, we would actually, and I would have to 
get the exact number of trainers that we have, but currently we 
can meet with the Border Patrol-we can meet the numbers that 
have been provided so far with just the supplemental and their 
base, 700 plus the 500, with the existing staff that we have.
    Anything in addition to that we would have to determine 
exactly how much we would have to provide, and then we would 
have to provide you what the added number of instructors would 
be.
    Mr. Thompson. Well, if we now say that we will train 2,000 
additional Border Patrol agents, do you have capacity to 
provide that training?
    Mrs. Patrick. We do. There are a few things that we would 
have to do if we were going to reach the 2,000 number in 
addition to what we are already doing with the supplemental. We 
had to build some capacity for sewage, just the infrastructure 
with the city that we have had to do that and some IT 
adjustments, and that was just to deal with the supplemental. 
But if the numbers were to go to the 2,000 mark, we could, in 
the short term, we can double bunk our--chokepoint our 
dormitories. We could double bunk.
    Now, we could actually go outside to nearby communities, 
Carlsbad and Roswell, and use housing in the economy, but, 
idealistically, when you have basic training students, it is 
better to house them in close proximity to one another and near 
the facilities. And over the long term, we would have to build 
additional capacity in the dormitories to accommodate 2,000.
    Mr. Thompson. Mr. Walters, from your perspective, do you 
get feedback from agents that they have been trained for one 
job but when they get on the job they are required to do jobs 
for which they have not been trained for?
    Mr. Walters. I do not get that feedback.
    Mr. Thompson. So it is your testimony here today that to 
your knowledge every Border Patrol agent that you know of is 
only doing Border Patrol work that he was trained. They are not 
doing auto mechanic work, they are not doing administrative 
work over and above whatever is required for Border Patrol 
agents.
    Mr. Walters. Oh, no, sir, I cannot say that. I did not mean 
to intimate that. It is clear to me based on my experience and 
what I know today that Border Patrol agents do whatever it 
takes to get the job done, and sometimes they do those kinds of 
administrative tasks in order to get the mission accomplished. 
We try not to do it that way on the Border Patrol side of the 
house. Sometimes we do it that way, because we do not have 
enough support staff in all the right places, at all the right 
times, on every occasion to get it done the right way.
    Mr. Thompson. So you are now saying you do know that they 
are doing something beyond what they have been trained to do, 
because it is getting the job done.
    Mr. Walters. Yes, sir. I understood your first question to 
be, are Border Patrol agents coming to me and saying, ``I am 
not trained to do welding or I am not trained to do 
administrative work,'' and I have not heard that, but in fact I 
do know that they are doing that kind of work when they are 
pressed to do that.
    Mr. Thompson. So now that you know that, what have you done 
in your capacity to change that?
    Mr. Walters. Well, since we became an organization in CBP 
and we united all the different pieces together, we have looked 
hard at how to best structure the Border Patrol, and that is an 
ongoing process right now. What is the right level of 
infrastructure, administrative support and those kinds of 
things that lets the Border Patrol agent be a good Border 
Patrol agent and focus on those tasks and not focus on other 
tasks. That is clearly an exercise that has been going on for a 
little while.
    We did not have it right when we were on the other side of 
the house in INS. We are trying to get there. I do not think we 
are there yet, but I think we are on the way. We are doing the 
work, the background work, to decide what that package ought to 
look like.
    Mr. Thompson. So you are saying you are doing the 
background work but you have not done anything yet.
    Mr. Walters. I have not, but I know it is being worked on. 
I am really the training expert and the Chief of the Border 
Patrol Academy and Assistant Commissioner for Office of 
Training and Development, and I know from the other side of the 
house the Chief of the Border Patrol, David Aguilar, and the 
Commissioner and the Deputy Commissioner are all in discussions 
on how best to structure the Border Patrol. And a lot of that 
is going on right now.
    In other words, I am not qualified to give you the best 
answer on that, sir, but I will take that back with me.
    Mr. Thompson. I caught you. Thank you very much.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Texas, Mr. 
McCaul, for any questions he may have.
    Mr. McCaul. Thank you, Mr. Chairman.
    I would like to follow up on a question that Chairman Cox 
asked regarding salary, and I believe you testified that it is 
$57,000 for 6 months for salary?
    Mr. Walters. For salary and benefits, yes.
    Mr. McCaul. And benefits.
    Mr. Walters. Right.
    Mr. McCaul. So if you double that per year, it is $114,000 
salary and benefits. A U.S. attorney makes that much money; an 
assistant U.S. attorney makes less than that. I find that hard 
to believe that that is the actual number.
    Mr. Walters. I have some experience in a past life with 
looking at budget for individuals in the federal government and 
I do know that the salary that you get in your paycheck is 
different from the total investment by the government, by the 
organization, and it is significant, again, as I said earlier.
    Mr. McCaul. And this is for someone hired out of the field, 
I mean, brand new, and they are making $114,000 a year, plus 
benefits--.
    Mr. Walters. No, no. That is the benefit?
    Mr. McCaul. I mean, yes.
    Mr. Walters. That would include the benefits; yes, sir.
    Mr. McCaul. Yes. I am looking at basically the initial 
salary. It is at a GS-5 to GS-7 level to hire a Border Patrol 
agent, which is between $34,000 to $38,000. So--.
    Mr. Walters. I cannot certify to the granularity of that 
figure. It may be that it is not the average of a GS-5 or a 7 
or a 9. It may be the average grade of every Border Patrol 
agent. I do not know that for a fact, but I can certainly--.
    Mr. McCaul. So then you are telling me the average is 
$114,000.
    Mr. Walters. I am sorry, I do not know the answer to that 
here today, sir.
    Mr. McCaul. Okay. Because that would be--if you subtract 
the salary even on the high end, GS-7, that equates to $77,000 
and benefits. I do not know what those benefits could be. I 
guess I am just confused about that. Perhaps if you could maybe 
come back to the committee and let me know what it is that we 
are paying these guys when they start working, both salaries 
and benefits, and what are the benefits. That would help me.
    Secondly, I live in a border state, and we, just as you 
know, authorize and appropriate 2,000 additional Border Patrol 
agents, and my constituents, first and foremost, want to know 
how soon they can get it going and get to work. How soon can we 
hire, train and get 2,000 agents on the border? We have got a 
real serious situation down there from a national security 
standpoint, in my view. Now we have volunteers lining up to try 
to tackle what should be the federal government's 
responsibility.
    Can you give me some idea of how long it would take to 
fully train and put them down on the border?
    Mr. Walters. The program itself, the Academy program, of 
course, is 20 weeks long. The recruiting and hiring process is 
ongoing right now. So we will train our target number and we 
will get to 500 net new by the end of fiscal year 2005. Right 
now we assume that we will add another 210 to that, and in the 
meantime we will also compensate for whatever losses we have 
through attrition, retirees or people going to other employment 
or those kinds of things. We are able to do that.
    And by the time this next budget cycle comes around and we 
have come to some certainty of what the number will be, we will 
also be able to adjust to that, but it will take us I think 
2,000 is probably near the maximum per year that we could hope 
to add net new without significantly going on the other side of 
risk management.
    But we can do it, sir, and we can do it within a year. We 
can hire them and put them into training within the year. Of 
course some of them will graduate in following fiscal years.
    Mr. McCaul. And I am just kind of curious, you hear a lot 
about the retention rate, it is hard to keep Border Patrol 
agents. Do you know what the retention rate is, on average?
    Mr. Walters. The last figure I saw, which is about a month 
old, was on the order of 6 percent or less for the Border 
Patrol as a whole. That includes Border Patrol and Border 
Patrol pilots of every age and grade.
    Mr. McCaul. And then final question: Can you speak to the 
detention space at all or is that out of your expertise?
    Mr. Walters. I can say this about detention space: We need 
it, we cannot do our job without it, but I cannot talk to it as 
an issue; no, sir.
    Mr. McCaul. Well, I know you do, and that is why we 
appropriated 4,000 additional beds.
    Mr. Walters. We appreciate that.
    Mr. McCaul. My question would be how soon we could build 
that, but that is probably for another witness.
    Mr. Walters. Yes, sir.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentlelady from the Virgin 
Islands, Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    And welcome to the panelists.
    Ms. Patrick, I am not really clear about the relationship 
between FLETC and the Artesia Training Facility. I see you 
worked together to set it up, but maybe you could explain to me 
what the training relationship is between FLETC.
    Mrs. Patrick. And Border Patrol?
    Mrs. Christensen. And you can add if you like, Mr. Walters.
    Mrs. Patrick. Okay. Just real briefly, the Federal Law 
Enforcement Training Center, the way I describe it to the 
community leaders, is that we have become a training 
corporation, basically, that our headquarters is located in 
Glynco, Georgia, and we have training facilities located in 
different sites within the U.S.
    One is in Artesia, New Mexico, one is in Charleston, South 
Carolina, one is Cheltenham, Maryland, and we also are 
responsible for the International Law Enforcement Academy in 
Botswana, Africa and will soon be developing with the State 
Department and Justice the ILEA, International Law Enforcement 
Academy in South America. That is what FLETC does.
    The Artesia campus is predominantly--right now we train 
Border Patrol, the Bureau of Indian Affairs, the FFDOs, the 
flight deck officers, and the--.
    Mrs. Christensen. But it is a part of FLETC.
    Mrs. Patrick. Right.
    Mrs. Christensen. It is not separate. Okay.
    Mr. Walters, some concerns have been raised about salary, 
and can you tell us whether the salary is for a 5-day week or a 
6-day week? And I ask that because in the Department of 
Homeland Security appropriations bill, there is a section that 
talks about back pay for officers for FLETC training, and they 
were not paid for the sixth day of training each week that they 
were there.
    So could you tell may first whether the salaries are a 5-
day week or a 6-day week?
    Mr. Walters. The salary figures that you see estimated are 
for the standard 5-day work week. We have not added anything 
into that. But I understand that other issue has been resolved. 
But let me take that back.
    Mrs. Christensen. The issue has been resolved?
    Mr. Walters. Let me take that back and make certain of 
that. I do not want to misspeak on that.
    Mrs. Christensen. Is there an overtime cap in place, and if 
so, what is that?
    Mr. Walters. There is an overtime cap. I think it is in the 
order of $30,000 plus per year is the cap, but this body 
thought it important enough to put in a waiver that the 
Commissioner could grant if that occasion comes up. So I do not 
see that as a major issue.
    Mrs. Christensen. So you will report back to the committee 
on the resolution of the back pay issue from January 2002 to 
October 2004?
    Mr. Walters. I will certainly give you a status report; 
yes, ma'am.
    Mrs. Christensen. Thank you.
    Chief Walters again, I have open waters as our border. I 
represent the U.S. Virgin Islands, 170 miles plus of it. And 
with all of the focus on the southwest and the northern 
borders, is there training as well for Border Patrol agents on 
patrolling and interdiction in this kind of setting as well?
    Mr. Walters. Yes, there is, and we have a Border Patrol 
sector in Puerto Rico, and we also have major coastal areas, 
things like a sector in Miami, we have a sector in New Orleans, 
and we do work closely with them to make sure that they are 
trained to operate small boats and operate in that kind of 
environment and get on and off ships and freighters and that 
kind of thing.
    Mrs. Christensen. And you are aware that even though there 
is a Border Patrol unit in Puerto Rico, they are pretty much 
stationed in the Mona Passage and they do not have the 
additional capacity to patrol St. James, St. Thomas and St. 
Croix.
    Mr. Walters. Yes, ma'am, I am familiar with that issue.
    Mrs. Christensen. Is any other language taught in the 
training? I know there is Spanish, but you said that since 9/
11, of course, the focus is now on antiterrorism. Is there any 
other language besides Spanish that is offered or taught?
    Mr. Walters. For basic trainees, no, ma'am, and Spanish is 
taught both to Border Patrol agents and to those going to 
certain select ports that are mainly Spanish-speaking on the 
CBP officer side as well. But I am not aware of any other 
language capacity that belongs to CBP. Spanish is taught to 
basic.
    Mrs. Christensen. If you are concerned about terrorism, I 
mean, you are not necessarily concerned--you have to place some 
degree of focus on people other than persons crossing over from 
Mexico.
    Mr. Walters. Yes, ma'am.
    Mrs. Christensen. But there may not be any other language 
being--.
    Mr. Walters. There is not an official program within CBP to 
teach any language other than Spanish.
    Mrs. Christensen. I think my time is up, but I may have 
questions on a second round.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentlelady.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Pascrell, for any questions he may have.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Walters, in the past, border agents have had an 
attrition rate of between 20 and 30 percent. I want to know, 
would like to know, and I am sure the panel would like to know, 
what is the attrition rate right now?
    Mr. Walters. The attrition rate for all Border Patrol 
agents is around 6 percent, sir.
    Mr. Pascrell. Are you telling me that the attrition rate 
has dropped from where it was prior to 9/11 to 6 percent?
    Mr. Walters. The current is 6 percent. In the past, I have 
known for the Border Patrol, as an entity, to have the 
attrition rate globally to go up around 15 percent, and that 
was right after 9/11 we lost a lot of agents to our air 
marshals. They went and staffed that program and decided to 
change jobs. So I am aware that it was higher, but I am not 
aware that it ever went up to 20 percent.
    Mr. Pascrell. Other folks on this panel have asked you a 
question about whether or not you would be able to handle the 
number of recruits. Just how many applications are you getting 
now?
    Mr. Walters. I do not know the answer to that. I am not as 
familiar as I probably ought to be with that. I can get back to 
you on that. But your question is, what are the number of 
applications? I can say that generally we have a strong 
interest in the Border Patrol occupation, and when we announce 
it publicly, we get a good response.
    Mr. Pascrell. So even in terms of numbers, if we wanted to 
go up to what many folks are talking about in the House, and 
that is 2,000 agents, you would be able to have enough 
qualified applicants in a pool to choose.
    Mr. Walters. It would certainly be a task for us to take 
on. I can say that we do not have that in the pool today, but 
if we are given the opportunity to train 2,000 more Border 
Patrol agents, we would find a way to do that. We have doubled 
the Border Patrol in the past, and we found ways to recruit and 
hire that many people.
    Mr. Pascrell. Chief Walters and Director Patrick, I am 
going to ask you a question the rest of my time on the 
following subject: Most of the interest is upon how many people 
we interdict trying to get this border illegally, all our 
borders.
    I want to deal with something other than people. I want to 
deal with what is coming across the borders. For instance, what 
training goes into a border agent with the trucks that are 
coming across the border from Mexico, which are now able to 
move into this country freely? What training do you give? What 
do they look at in these trucks? I mean, if they cannot find 
cocaine, how are they going to find weapons of mass 
destruction, you tell me?
    Mr. Walters. If we are looking at the Border Patrol piece, 
the Border Patrol agents do a traffic checkpoint, and it is 
usually someplace other than right at the border. So they use 
what they can, and things like dogs, canine and non-intrusive 
inspection devices, density meters and those kinds of things 
are common.
    Mr. Pascrell. What percentage of trucks do they stop to 
look at?
    Mr. Walters. I have no idea, sir.
    Mr. Pascrell. Would you be surprised if I told you less 
than 5 percent?
    Mr. Walters. I have no idea to know whether that is a good 
number or a bad number, sir.
    Mr. Pascrell. Would you get back to us, to every member of 
this committee, to tell us what is being inspected that comes 
over, not only from the South but from the North? I mean, how 
in God's name are we going to stop weapons coming into this 
country if most of the vehicles that come into this country are 
not properly inspected? You tell me.
    Mr. Walters. We do inspect every vehicle at some point, at 
some level, but if you are talking about taking apart, 
unloading it, and doing a thorough inspection of every piece of 
it; no, we do not do that. But what we try and do operationally 
is target and profile the kinds of vehicles that are likely to 
hold contraband or weapons of mass destruction. We do not get 
to all the millions of vehicles and do a thorough inspection on 
all the millions of vehicles that come in, that is true; but we 
do, I think, a very good job of targeting and looking at a high 
proportion at least of high-risk vehicles.
    Mr. Pascrell. I have heard a lot of discussion concerning 
what we inspect at our ports, but indeed coming across our 
borders we have very little idea what is coming into this 
country right now, whether it is vegetables or weapons, do we?
    Mr. Walters. If you are talking about in between the ports 
of entry, you are right, we do not know what we do not know.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    I want to go back to the capacity we were talking about a 
little while ago. If the money was appropriated, whatever the 
accurate figure is--I would like for both of you to answer 
this--could you train 2,000 new officers over the next 12 
months--18 months?
    Start with you, Chief.
    Mr. Walters. Yes. If we are given the opportunity to add 
2,000 Border Patrol agents and get them into training before 
the end of the next fiscal year, we can do that. I have every 
confidence.
    Mr. Rogers. Ms. Patrick?
    Mrs. Patrick. I agree.
    Mr. Rogers. The reason I ask the question is, earlier this 
year we had another hearing and Asa Hutchinson was one of our 
panelists. He was asked that question and he said it was not 
possible to train that many officers in a year and I find that 
startling. I cannot help but think that if you did not have the 
capacity, then we could contract out to supplement what you can 
do.
    Mrs. Patrick. Well, based--.
    Mr. Rogers. Go ahead.
    Mrs. Patrick. I was going to say, based on what I know our 
capacity to be, and we continue to build up our facilities over 
time, especially after 9/11 when we had to build capacity for 
the Air Marshal Program, which is not being fully utilized now. 
So we have capacity to meet the numbers that you are 
suggesting.
    And I do not know what the time reference was when he was 
testifying and how far along we were in terms of building 
facilities, but we have made a lot of progress, particularly in 
Artesia. But to meet the numbers, 2,000, we can do that.
    Mr. Rogers. With existing infrastructure?
    Mrs. Patrick. We have--I have done estimates not exactly at 
2,000 but close to 2,000 and, as I said, emergency measures are 
doubling up in the rooms will give us additional capacity. That 
will work for some time, but after a period of time it would be 
necessary to build additional--a dormitory or use rooms in the 
community in order to house them, because it would just be too 
cramped.
    The one thing we are currently using in Artesia is a 
swimming pool that belongs to the city to do aquatic training, 
and in light of two Border Patrol officers dying last years in 
a drowning, it is a very important part of the curriculum to 
have that number of students, depending on the school to train 
them in an aquatic facility at some point in time, we would 
need to build a training facility. And other than that, other 
than from about $1 million for sewage enhancements and IT, we 
could do it.
    Mr. Rogers. Let me ask this question then: What is the 
dollar amount that you believe, Ms. Patrick, that you need to 
train 2,000 new officers over the next 12 to 18 months?
    Mrs. Patrick. To be exactly precise, I would rather give 
that to you in writing so I could--because my numbers are not 
at 2,000. I have got numbers between 1,600 and 2,350, and I 
will provide all that to you.
    Mr. Rogers. I look forward to receiving that.
    Mrs. Patrick. Okay.
    Mr. Rogers. Help me understand the relationship--according 
to your numbers, we need $179,000 per Border Patrol officer to 
train them. The total number, yes, we are still a little 
sketchy on that, but just for the sake of this, $179,000.
    Ms. Patrick, do you need anything over and above that to 
train those officers?
    Mrs. Patrick. Yes.
    Mr. Rogers. What would you need?
    Mrs. Patrick. The tuition money that I spoke to, in our 
base, we are already funded for 700 new starts every year for 
Border Patrol. That covers their attrition, that is already 
funded. Anything above that would require tuition.
    Mr. Rogers. So the tuition number is not incorporated in 
your number of $179,000, Chief Walters?
    Mrs. Patrick. No. And that is--.
    Mr. Rogers. That is my question.
    Chief Walters, the $179,000 per Border Patrol officer that 
you suggested does not include the tuition to send them to 
FLETC?
    Mr. Walters. There may be some overlap there. We would 
better check that. I think that for the first 700 that I would 
have to train, I have included tuition as a reimbursable, but 
everything over that I probably did not. But rather than let me 
speculate here, let me go back and do a good job on that and 
get you a report on it.
    Mr. Rogers. Go back to something I asked a little earlier: 
If you did not receive any new money, as I understand it, you 
could take the one point some odd million dollars that you have 
just received and train a large number of Border Patrol 
officers?
    Mrs. Patrick. About 1,400.
    Mr. Rogers. Fourteen hundred. Okay.
    Has there been a history, Chief Walters, with any 
contracting out with universities, law enforcement departments, 
or any entities like that to meet these surge demands for 
Border Patrol officer training?
    Mr. Walters. For basic training, no, we have never used 
contract employees directly. No, sir.
    Mr. Rogers. My time has expired.
    I recognize the Ranking Member, Mr. Meek.
    Mr. Meek. Thank you very much, Mr. Chairman. Once again, I 
am just so pleased that we are having this hearing, because it 
is actually unfolding quite a bit. Some that I am encouraged to 
hear good answers on and some that I am still not clear on.
    I can also say that there is a three-prong issue here. One, 
the training that you are already providing, which we are 
examining now; two, you have a private sector that is walking 
the halls of Congress saying that, ``Listen, we are willing to 
serve our country in any way.'' Interesting, the next panel we 
will have not only a member but the president of Blackwater USA 
that has stepped up to the bat, many of whom serve this country 
in a military capacity before, willing to stand up and do what 
they have to do and offer their services in this area. And 
there are a couple of other people, a couple other U.S. 
companies that are willing to do so.
    And then you have this third thing that makes this whole 
debate very interesting. You have U.S. citizens that have now 
taken it upon themselves to try to protect our borders, and 
this is something that we thought that we would never come to 
or get to the point where we would have that happen. Now that 
is happening, and it is not going away anytime soon.
    So that means one of two things: One, either we have to 
look at the way we are doing business or, two, do business 
better or either start talking about other alternatives in 
protecting our borders. We know our men and women that are out 
there on the border, as you mentioned, Chief, in a very 
eloquent way, and I just want to say to the--I know that you 
are the Assistant Commissioner of Training and Development for 
the Bureau, but you can shake the Commissioner's hand when you 
see the Commissioner. Let it be known that you are pleased to 
come before the committee anytime to answer these very tough 
questions.
    But it is important that we rise to the occasion to get 
these numbers right. And I know the men and women out there are 
doing the best they can. You mentioned the work that they are 
doing, the next shift that is coming on as it relates to the 
nightshift, but there are private sector companies that are out 
there saying without any hesitation that they can train 2,000 
new border protection and patrol individuals to rise to the 
occasion.
    The last thing that I know that I want, and I do not want 
to speak for other members of the committee, the U.S. taxpaying 
citizens, many of whom that have served their country, have to 
take it upon themselves to get a yard chair and sit out on our 
borders to stop individuals from coming in.
    And that brings about the pivotal question here and I think 
that is the thrust mainly behind this whole debate.
    Now, I think that once we start looking at the way we do 
business, I think that we can do business better, and that is 
making sure that we not only train but we preserve the 
Department and the Customs and Border Protection officers' 
integrity of the reason why they joined the Patrol in the first 
place.
    I used to be a state trooper, and I bring this up like once 
every meeting, because I think it is important. I have been on 
the front line, and it has always been a question of 
privatization--always. We never had individuals in the State of 
Florida saying, ``Well, I am retired, I have some military 
background. I want to go out and be a state trooper because 
there is just lawlessness in the streets.'' But we have that in 
this case.
    And so I do not want to be a Member of Congress with a 
conspiracy theory of saying that those that are in power, those 
who are in control of training and making the decisions over at 
DHS want to set the stage for the private sector to come in and 
do the job that we should be doing anyway. One may say in some 
circles, ``Let's put the cookie on the bottom shelf so that 
everyone can reach it.''
    I just want to know how do you feel mainly, Chief, and if 
you want to, Director, you can chime in, how do you feel about 
this ever-growing threat of two things: One, American citizens 
by the numbers continuing to go out and try to protect our 
borders; two, the private sector's ongoing push of saying that, 
``We are here to serve if we are asked to do so.'' Is that a 
discussion within the Bureau, because it is definitely reality?
    Mr. Walters. I would like to take that first, if I might. 
The involvement of the citizenry, of course, as the 
Commissioner has noted in previous hearings, is really at the 
heart of the democracy. We appreciate the citizens' involvement 
and we appreciate the interest. And as long as the line is 
drawn where they do not try and go too far with that and try 
and make arrests or insert themselves and make the problem 
worse. I do not think we have hit that point yet, I am not 
saying that.
    I appreciate all the attention that we have brought to bear 
on this by the citizen involvement, but I agree with you that 
there is a limit to citizen involvement and that we need to do 
a better job and keep that about where it is now would be as 
far as I would want to go with that.
    And then as far as the private sector involvement in 
training, you are right, it is a sensitive issue. It is a 
sensitive issue at the state law enforcement level, same with 
the federal government. Our gold standard so far has been our 
training is evaluated by how well the agents perform in the 
field. So far they have been performing pretty well, and so I 
do not have the impetus to try and change that formula for 
basic training very much.
    Now, for advanced training that is a different story, and 
that is not the subject of the hearing today, but for basic 
training it is very important, I think, that the green shirts 
be perceived to give context to that training and be able to 
speak the details of policy and procedure and not just the 
mechanics of the subject that is being trained.
    Mr. Meek. Well, Mr. Chairman, I see that my time has run 
out.
    But I want to thank you, Chief, for responding in a way, 
because I know a lot of the frontline men and women are very 
concerned about the criticism that the Department is receiving, 
especially the Bureau, on the issue of the cost of training.
    So hopefully we can hammer it out and members of Congress 
can be educated more on the ins and outs of it, and hopefully 
we can work together in making sure that we keep integrity of 
what we have right now and build on it.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    And the Chair now recognizes the chairman of the full 
committee, Chairman Cox, for any additional questions he may 
have.
    Mr. Cox. Thank you, Mr. Chairman.
    As you know, the purpose of this hearing is to find out how 
the Department of Homeland Security can increase training 
capacity more effectively, and for that reason, we are trying 
to understand how much it costs us to do it the way we are 
doing it; whether or not we have any capacity we can take 
advantage of; whether there are other ways that we can help you 
to train more people and place them into service as quickly as 
they are needed.
    In listening to the testimony thus far, I am going to recap 
what I think I have learned for the record, and please correct 
me, Director Patrick or Chief Walters, if any of this is 
incorrect.
    The full cost of recruiting, training, and hiring a new 
Border Patrol agent, which includes almost a half-year's 
salary-42 percent of a full year, five-twelfths-and associated 
overhead--computers, phones, cars, uniforms, equipment and so 
on--is $179,000. Of that, the actual training cost is $23,000. 
Am I right so far?
    Mr. Walters. Yes, sir.
    Mrs. Patrick. I can speak to how much it costs us. I do not 
know what his additional costs are. I know what our costs are.
    Mr. Cox. Why don't you speak to that and make sure we are?
    Mrs. Patrick. It is $8,734 per person. And that is for the?
    Mr. Cox. Eight thousand seven hundred and thirty-four 
dollars is the tuition we were speaking of earlier?
    Mrs. Patrick. Tuition, correct. And actual tuition is 
$5,754, and the instructor cost per student is $2,980. So the 
total is $8,734 per student for what it costs us to train that 
person with our instructors and our tuition.
    Mr. Cox. All right. Because the numbers are sufficiently 
manageable, I am not going to inquire into why tuition is 
separate from instructor costs, but?
    Mrs. Patrick. That is our total cost for producing the 
training.
    Mr. Cox. What most of us would understand to be tuition, 
which pays for that, is $8,734.
    And, Chief Walters, is that embedded in the $23,000 figure 
you gave us for training?
    Mr. Walters. No, I do not believe it is.
    Mr. Cox. So can you tell us what the $23,000 is for?
    Mr. Walters. The $23,000 covers reimbursable type things 
one use each, things like supplies and things that the Federal 
Law Enforcement Training Center does for us, specifically for 
our employees that we reimburse them for.
    Mr. Cox. Since that is roughly three times the tuition, can 
you give me an example of a reimbursable or one-time use 
supply?
    Mr. Walters. Printing costs to run telephones?
    Mrs. Patrick. Have you accounted for the per diem?
    Mr. Walters. No, that is not part of the $23,000.
    Mrs. Patrick. Oh, it is not? Oh.
    Mr. Cox. Printing is not very expensive. Telephone use, 
likewise, it is very cheap. How do you get to $23,000?
    Mr. Walters. I will have to get some more detail on that, 
obviously, for you, sir.
    Mr. Cox. All right. Let me now ask another question. So 
somewhere in the neighborhood of $31,000 is the training costs 
then. Is that right, 23 plus 8, or 23 plus 9? Am I in the right 
neighborhood for the training costs?
    Mr. Walters. Your addition is correct, sir.
    Mr. Cox. Okay. And what we are teaching according to the 
Border Patrol agent fact sheet distributed by CBP, the U.S. 
Customs and Border Protection Office of the Department of 
Homeland Security, is the following: We are teaching 
immigration nationality law, Spanish, PT and firearms. Do 
people ever waive out of any aspect of that training? If I show 
up and I say, ``I already know all this immigration law, can I 
just test out?
    Mr. Walters. No. It is more like a military boot camp where 
everybody participates at the same level and we build unit 
cohesiveness.
    Mr. Cox. And what happens if I actually speak English as my 
second language, and I am amazingly literate in Spanish? Can I 
test out of that?
    Mr. Walters. No, not in the current procedures, but you can 
help your classmates to hone their skills in Spanish.
    Mr. Cox. Now, when I show up I am supposed to be able to do 
25 sit-ups and 20 push-ups and also a step test. And when I 
finish the PT course, I am supposed to be able to run one and a 
half miles in 13 minutes, supposed to be able to do the 220 
yard dash in 46 seconds, and I am supposed to complete the 
confidence course in two minutes and a half. What happens if I 
can do that when I come? Will you just let me see if I can show 
you I can already do that?
    Mr. Walters. No. We do not test out the individual elements 
of the program. Graduating classes graduate together.
    Mr. Cox. So let me ask you this: Would it be an option if 
we are trying to increase the throughput and we have training 
capacity constraints, would it be an option to let people test 
out?
    You already let them apply online on the Internet. Could we 
not let them, through some secure means, show that they are 
already literate in Spanish and that they already understand 
all the immigration nationality law that they need to know; 
maybe make them physically show up for one day and perform 
their marksmanship and also do the PT exit course? And, if they 
meet the standards, then you can place them right into the 
apprenticeship where they really have the on-the-job training 
that is so important.
    Mr. Walters. I hear what you are saying. We have looked at 
that in the past, and we have looked at it often.
    What the Border Patrol Academy really does is provide the 
entire context for a Border Patrol agent before this new Border 
Patrol agent goes out to the field and begins his on-the-job 
training. So we have to be certain that he has all the pieces 
so that he is not a risk to himself or to the people out there 
or to other agents when he gets out there. So we have not 
allowed people to test out.
    It is also the advantageous to us to bring people in as a 
group and testing them as a group because it helps to build 
unit cohesiveness and esprit de corps. That is an important 
piece of what we are trying to accomplish.
    Mr. Cox. Director Patrick, do you want to add to that?
    Mrs. Patrick. Like Mr. Walters, we have looked at that same 
scenario. After 9/11, with the Federal Air Marshals Program, we 
actually did end up doing some of that prior law enforcement 
experience-there were abbreviated training programs for those 
officers to get them out faster. And so we have experience 
doing that.
    The policy in terms of liability, et cetera, usually the 
agency makes a determination of what they are willing to do, 
and then we will help develop the appropriate requirements for 
whatever the training will be. But we have discussed it before 
in a different context and have actually done it in the past.
    Mr. Cox. Well, Mr. Chairman, I think we need to explore 
this.
    Obviously, the main object of all of this exercise is, 
first, to prevent the entry of terrorists and terrorists' 
weapons onto U.S. soil. Second, to enforce the immigration laws 
and the drug laws.
    We are not really getting on to that business if we are 
making people go through the motions of things they already 
know. We ought to get on to that more meaningful training, and 
I think we have some avenues to do that and to do it more 
efficiently for the taxpayer.
    I appreciate this interchange. We want to give you all the 
support that we possibly can.
    And thank you, Mr. Chairman, for the extra time.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Mississippi, 
Mr. Thompson, for any additional questions he may have.
    Mr. Thompson. Thank you, Mr. Chairman.
    Chief Walters, could you explain a detailing of people for 
training from the Department's standpoint? One of the concerns 
we hear as a committee is that when details occur, areas are 
left understaffed. And I would like to know whether or not that 
is the case and if it is, have you looked at addressing what is 
acquired so that we will not have to get in the situations of 
being short-staffed?
    Mr. Walters. Yes. Well, the formula that we came up with is 
to allow the Chief Patrol agents out in the sectors to 
determine which people are going to be assigned on temporary 
assignment. When we were under the highest class load that we 
have ever been on, we have had as many as perhaps 250 Border 
Patrol agents detailed from the field to the Academy. And that 
was a good thing, but we were at about 11,000 Border Patrol 
agents. So that is less than 3 percent--that is probably fewer 
people than were on sick leave that day.
    For that return on investment, we bring in and we add 
another 1,000 or 2,000 Border Patrol agents that year by virtue 
of having these people come in from the field. So to us that is 
a good sensible investment and we manage the risk part by 
letting the people in the field tell us which people can come 
and which ones cannot.
    Mr. Thompson. So it is your testimony that when the 
detailing occurs, from your professional standpoint, we are not 
put in any vulnerable position or anything like that?
    Mr. Walters. For the training piece, I can speak to the 
training piece, sir, and it is not large enough to make that 
kind of a difference in this organization, in the Border Patrol 
organization.
    Mr. Thompson. Thank you.
    Mr. Rogers. I want to thank both of you for being here and 
taking the time to--oh, I recognize the gentleman from Florida, 
Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman.
    Chief, I really would appreciate if we could have some 
comparisons of--I know that, Madam Director, you have, I 
believe, somewhere in the neighborhood of about 81 different 
law enforcement agencies that actually go through your basic 
training.
    Chief, I think it would be helpful for us all to see a 
comparison to other training agencies that actually train law 
enforcement officers in advanced training of costs that is 
associated with that. I think it will not only bring about a 
level of clarity for members of the committee, but also I would 
assume maybe defend some of the things that you have mentioned 
here today that goes into that training.
    And, Mr. Chairman, if we could disseminate that amongst the 
committee and get it to us as soon as possible, I think it 
would be helpful in our work.
    Mr. Walters. Thank you for the opportunity.
    Mr. Rogers. We will do that.
    Again, I thank both the witnesses, and this panel is 
excused, and we will call up the second panel.
    The Chair now calls the second panel and recognizes Mr. 
T.J. Bonner, President of the National Border Patrol Council, 
for any statement that you may have.

  STATEMENT OF T.J. BONNER, PRESIDENT, NATIONAL BORDER PATROL 
                            COUNCIL

    Mr. Bonner. Thank you, Mr. Chairman, other distinguished 
members of the subcommittee.
    Without question, the Border Patrol faces an incredible 
challenge. Last year alone the officers apprehended nearly 1.2 
million illegal entrants into this country. Most alarmingly, 
however, they estimate that for every person they catch, two or 
three get by them. We need reinforcements desperately and we 
need them yesterday.
    More important than anything else is to bear in mind the 
reason for these additional Border Patrol agents. It is for 
securing our nation's borders. You can never lose sight of 
that. It is not simply an exercise to see whether we can bring 
on 2,000 people or 3,000 people. It is finding the right 
people, providing them with the right training, giving them the 
right support, and providing them with the right 
infrastructure.
    Currently, far too many Border Patrol agents are assigned 
to duties that should be done by support personnel. They are 
manning cameras, looking at sensors, they are repairing 
vehicles, they are transporting illegal aliens, do all manner 
of jobs that should be done by other support personnel that are 
not in place. We have a number of other weaknesses in the 
existing infrastructure. The buildings that we occupy, in many 
cases, are far too small for even the existing number of 
people, and when we increase the number of people, the problem 
will only get worse.
    The weapons that we carry in some cases are prone to 
failure. These are weapons that are breaking down after as few 
as 5,000 rounds, and many of these weapons now have 15,000, 
20,000 rounds of ammunition that have been fired through them 
through the quarterly qualification process. Body armor that 
our agents have been issued in many cases is long overdue for 
replacement, and in some cases it is of a material that is 
defective, that is wearing out within a matter of months rather 
than years and yet we have not replaced these things.
    I do not know what the true cost of hiring a Border Patrol 
agent is. We have heard a lot of figures here, but this I can 
tell you: We do not have enough infrastructure right now, and 
this figure that has been batted about of $57,000 for a half 
year's salary, when we start these agents out we are paying 
them about $35,000. So they are not the highest paid, and that 
is one of the reasons that we are losing these agents.
    They look around at other parts of the federal law 
enforcement community, and even state and local, where these 
agents, after 5 years on the job, are making between $50,000 
and $60,000 a year. They see a police officer in San Diego, for 
example, being hired at that same amount, and it is a real 
temptation to go over and work for a different agency.
    We need to do something about all of these types of issues 
if we are going to be able to attract people to the United 
States Border Patrol and, more importantly, to hang on to these 
people.
    And the Academy training is just the beginning of the 
process. The most important part of the training is that one-
on-one mentoring that goes on when that agent comes back to the 
field. It is critical that we have enough experienced agents 
there to take these new agents by the hand and show them how to 
do that job, because it is not just the factory where we are 
cranking out new Border Patrol agents. We are trying to train 
people so that they can do the job properly, so that we respect 
the rights of those who are being encountered.
    Not everybody that is encountered by an immigration officer 
is an illegal alien, and it is very important that these 
officers have the training so that they do the job properly and 
do not violate the rights of United States citizens or aliens 
who are in this country lawfully.
    I would like to talk a little bit about what it is going to 
take to hang on to some of the folks that we have. Pay is very 
important, as I mentioned. We are underpaid in comparison to 
the rest of the federal law enforcement community.
    Job satisfaction is another thing. Some of the strategies 
that are being employed right now, such as the so-called 
strategy of deterrence where our agents are forced to sit in 
one place for the entire 8-, 10-hour shift is just mind-
numbing, and it is moronic in this post-9/11 environment to 
think that a terrorist is going to be deterred by an agent just 
sitting in one spot. These agents need to be allowed to pursue 
people who are crossing our borders.
    As I said, the most important thing to bear in mind through 
this entire discussion is why we are hiring these agents. There 
is a crying need for agents, clearly, which is borne out by the 
call for citizen patrol groups, military on the border.
    Clearly, we are not doing our job, but the reason we need 
more Border Patrol agents is to secure our borders. We need to 
spend whatever it takes, not try and do it on the cheap; not 
try and figure out how we can cut corners to hire as many 
Border Patrol agents as possible, but to spend whatever it 
takes to support these men and women so that they can go out 
there, give them the policies that they need.
    For example, one of the most important things that this 
Congress can do to support the Border Patrol is to pass 
legislation that makes it easy for Immigration agents, not 
necessarily Border Patrol agents, but for Immigration agents to 
crack down on employers who are hiring illegal aliens. We know 
that is why 98 percent of the people are coming across the 
borders, and yet millions of people are in this country as we 
speak working without fear of being removed from this country.
    If we eliminate that employment magnet, it would make the 
job of the Border Patrol 10 times easier than it is now because 
we would reduce the amount of traffic from millions of people 
coming across the border on an annual basis to thousands of 
people. And then what you would have would be criminals and 
terrorists coming across, and we could focus on that.
    And I believe that with a workforce of 20,000 Border Patrol 
agents, we actually could secure the borders, which would solve 
a lot of the problems that you have with the citizen patrols 
being up in arms and saying, ``The government is not doing its 
job.'' We are not doing our job, but we need support from 
Congress in the form of laws that are easy to enforce, and we 
need support from Congress in the form of enough money so that 
we have not just the agents out there but the infrastructure to 
support those agents, and its sorely lacking right now.
    I thank you for your time and look forward to your 
questions.
    [The statement of Mr. Bonner follows:]

                   Prepared Statement of T.J. Bonner

    On behalf of the 10,000 front-line employees that it represents, 
the National Border Patrol Council appreciates the opportunity to share 
its views and recommendations regarding the challenges presented by the 
public mandate to significantly increase the number of Border Patrol 
agents.
    Beyond a doubt, our Nation's borders are out of control. With only 
10,700 agents responsible for patrolling about 8,000 miles of land and 
coastal borders, the Border Patrol is simply overwhelmed by the volume 
of traffic that constantly streams across our borders. Front-line 
agents estimate that between three and four million people cross our 
borders illegally every year, yet they are only able to apprehend 
slightly more than one million of them. The most troubling aspect of 
this problem is the fact that we know nothing about those who 
successfully enter our country illegally. Although the overwhelming 
majority of them are searching for employment opportunities, it has now 
been confirmed that a significant number are criminals. In the first 
three months after the integration of the Border Patrol and the FBI 
automated fingerprint systems last September, more than 23,500 
criminals--about 8% of the total number of all persons apprehended--
were arrested, including 84 homicide suspects, 37 kidnaping suspects, 
151 sexual assault suspects, 212 robbery suspects, 1,238 suspects for 
assaults of other types, and 2,630 suspects implicated in dangerous 
narcotic related charges.\1\ It is not unreasonable to extrapolate that 
same percentage to the millions of people who avoid apprehension, nor 
is it unrealistic to assume that some terrorists are also taking 
advantage of our porous borders.
---------------------------------------------------------------------------
    \1\ Customs and Border Protection press release, December 20, 2004.
---------------------------------------------------------------------------
    In order to bring our borders under control, a comprehensive 
enforcement strategy is needed. By far, the most important step that 
can be taken is to directly confront the problem at its source rather 
than continuing to tinker with the symptoms. Without question, the 
overwhelming majority of people enter the United States illegally in 
search of economic opportunities. In order to change this dynamic, the 
employment magnet must be eliminated. The only way to do this is by 
enacting legislation that makes it easy for employers to know which 
applicants are authorized to work in this country, and painful for them 
to hire those who are not. H.R. 98, the ``Illegal Immigration 
Enforcement and Social Security Protection Act of 2005,'' achieves 
these goals. Even this measure, however, would not eliminate the need 
for significant growth of the Border Patrol in order to enhance its 
ability to effectively deal with the increasing problem of criminals 
and terrorists seeking to enter our country.
    This expansion presents a number of challenges. In addition to 
significantly increasing the number of Border Patrol agents, there must 
be a commensurate growth in the infrastructure that supports them. 
Adequate equipment, facilities, and support personnel are all necessary 
in order to ensure that the new agents are able to effectively carry 
out the mission of the agency. Currently, even the existing workforce 
is plagued by deficiencies in all of these areas. Thus, these 
additional expenses must be factored not only into the cost of hiring 
new employees, but also into upgrading support for current employees. 
To cite but a few examples:
        <bullet> The number of support personnel is wholly inadequate, 
        causing able-bodied Border Patrol agents to be assigned to 
        duties such as monitoring cameras and sensors, operating 
        communications equipment, and repairing vehicles. Not only does 
        this waste money by having lower-graded work performed by 
        higher-paid employees, it detracts from the accomplishment of 
        the agency's core mission by diverting trained law enforcement 
        personnel away from their primary duties.
        <bullet> Numerous buildings were designed for only a small 
        fraction of the employees that are currently assigned there, 
        and even more facilities are woefully inadequate for the number 
        of employees that are projected to be assigned there in the 
        near future.
        <bullet> The overall condition of the Border Patrol's vehicle 
        fleet is deplorable. A large percentage of vehicles have 
        mileage that far exceeds the recommended amount for law 
        enforcement vehicles, and need to be sold or scrapped. 
        Inordinate amounts of time and money are being spent to keep 
        these vehicles operating. In many locations, the few vehicles 
        that are serviceable at a given moment are being operated 24 
        hours a day, accelerating their breakdown. This situation also 
        forces agents to wait for the previous shift to bring in 
        vehicles, causing needless gaps in coverage along the border.
        <bullet> Many Border Patrol agents are still carrying handguns 
        that are prone to breakdowns after firing as few as 5,000 
        rounds of ammunition, a threshold that was surpassed several 
        years ago.
        <bullet> In most locations, numerous employees have to share a 
        single computer terminal, causing countless hours to be wasted 
        waiting to access these workstations.
        <bullet> Far too many Border Patrol agents are wearing body 
        armor that has expired or is made out of defective material 
        that deteriorates in a matter of months when exposed to 
        ultraviolet light or perspiration.
        <bullet> The communications system in many areas is filled with 
        large expanses where radios are unable to transmit or receive, 
        needlessly endangering agents in the field.
        <bullet> Front-line employees deeply appreciate the recognition 
        by Congress of the need to quickly reinforce the thin ranks of 
        the Border Patrol. The process of hiring and training 
        substantial numbers of new agents will be complicated by a 
        variety of problems, however:
        <bullet> The recruitment program needs to be significantly 
        expanded. When the decision to drastically scale back on the 
        recruitment and hiring process was made early last year, it 
        stranded thousands of interested applicants in the hiring 
        pipeline. Unfortunately, most of them have since moved on to 
        other careers.
        <bullet> The screening process, wherein suitable candidates are 
        identified through testing, interviews and thorough and timely 
        background checks, is a critical part of the recruitment 
        process. The temptation to cut corners on these processes for 
        the sake of expediency must be resisted at all costs. A lack of 
        attention to these important matters up front can be incredibly 
        damaging and costly later.
        <bullet> The training process entails much more than just 
        teaching new recruits the fundamentals in the structured 
        environment of the Border Patrol Academy. Following that 19-
        week course, new-hires continue their academic studies at least 
        once a week for the next six months. Even more importantly, 
        they are paired up with experienced agents during that same 
        period to receive one-on-one field training. This critical 
        aspect of the training process limits the number of agents that 
        can be trained at any given time. For this reason, the National 
        Border Patrol Council believes that it would be a mistake to 
        attempt to increase the size of the Border Patrol by more than 
        25% annually. The addition of 10,000 Border Patrol agents over 
        the next five years as authorized by the Intelligence Reform 
        and Terrorism Prevention Act of 2004 is well within this 
        margin, however. The Border Patrol was able to absorb a similar 
        increase following the passage of the Illegal Immigration 
        Reform and Immigrant Responsibility Act of 1996, which also 
        authorized a doubling of the Border Patrol workforce. That 
        legislation called for the addition of 1,000 Border Patrol 
        agents and 300 support personnel for each of the following five 
        fiscal years. Despite the skepticism surrounding those 
        ambitious hiring goals, they were in fact met during the first 
        four years. The latest authorization actually represents a 
        smaller annual percentage increase than the previous build-up, 
        and is likewise attainable.
        <bullet> The training facility in Artesia, New Mexico is less 
        than ideal for training large numbers of new Border Patrol 
        recruits. It is remotely located, and the existing facilities 
        are inadequate. Although a substantial investment in facilities 
        will undoubtedly need to be made regardless of where the 
        training facility is located, some thought needs to be given to 
        the desirability of the location from the viewpoint of the 
        potential pool of permanent and temporary instructors. It will 
        be difficult to entice an adequate number of volunteer 
        instructors to go to Artesia for a minimum of six months, and 
        it would be foolish to force employees to go there as 
        instructors for any length of time. Impressionable new-hires 
        deserve to be trained by instructors who are both highly-
        qualified and highly-motivated.
        <bullet> The Border Patrol needs to revamp and standardize its 
        field training program to ensure that new-hires are learning 
        all of the requisite skills in a systematic and comprehensive 
        manner. The current system is too haphazard, and is in need of 
        vast improvements.
        <bullet> The recent practice of requiring former Border Patrol 
        agents to complete the entire 19-week Border Patrol Academy 
        course again after they are re-hired is a waste of time and 
        precious resources. These employees have already proven their 
        mettle, and any refresher training that might be necessary 
        could be accomplished in much less time.
    Hiring large numbers of new employees will accomplish very little 
if they merely use the Border Patrol as a springboard for other law 
enforcement careers. For a variety of reasons, the Border Patrol has 
experienced a considerable amount of difficulty in retaining agents 
beyond a few years:
        <bullet> Lack of job satisfaction. The most commonly-cited 
        complaint concerns the so-called ``strategy of deterrence'' 
        wherein agents are required to sit in stationary positions for 
        eight to ten hours a day instead of being allowed to pursue 
        those who are crossing our borders illegally. This ``scarecrow 
        strategy'' never deterred anyone from crossing--at the most it 
        merely pushed traffic to another part of the border--and has 
        facilitated the entry of countless criminals and terrorists.
        <bullet> Low pay. Border Patrol agents are paid considerably 
        less than many other Federal, State and local law enforcement 
        officials performing tasks of comparable complexity and danger. 
        Because of their training and reputation, Border Patrol agents 
        have no problem finding employment with other law enforcement 
        agencies.
        <bullet> Lack of mobility. Agents have very little choice in 
        their initial assignment, and then find it very difficult to 
        subsequently relocate. Even though the National Border Patrol 
        Council convinced the agency to participate in a test program 
        that dramatically reduced the cost of relocations, the agency 
        has used this authority sparingly, and recently even canceled 
        more than 150 transfers that had previously been approved. As 
        might be imagined, this has had a devastating effect on morale.
        <bullet> New personnel system. The recent changes in the 
        personnel system authorized by the Homeland Security Act of 
        2002 have caused numerous employees to reconsider their 
        decision to remain with the Federal Government. All employees 
        want to be treated and paid fairly, and to have a say in the 
        decisions that affect their working conditions. Although the 
        new rules purport to be progressive measures that will reward 
        and encourage superior performance and hold all employees 
        accountable, they are in fact throwbacks to the corrupt, 
        cronyism-based nineteenth century civil service system that 
        nearly ruined public service in this country. Even though this 
        system has not yet been officially implemented, disturbing 
        evidence of management abuses of power in anticipation of this 
        new authority is already coming to light.
    Although the attrition rate has stabilized at a relatively low 
level lately, this will not last, as the aforementioned problems have 
not been resolved. The current level is artificially low for two 
primary reasons:
        <bullet> The dearth of recent new-hires skews the rate lower 
        than normal, as the attrition rate has historically been 
        highest among employees during their first three years of 
        employment.
        <bullet> Budgetary shortfalls at all levels of government--
        Federal, State, and local--are temporarily keeping dissatisfied 
        employees in place. As soon as these other agencies begin 
        hiring large numbers of employees, a mass exodus of Border 
        Patrol agents will undoubtedly occur, as was the case when the 
        Federal Air Marshal Service began its hiring expansion and the 
        Border Patrol's attrition rate soared to nearly 20%.
    While the aforementioned challenges are formidable, they are not 
insurmountable. Many of them will require substantial expenditures to 
address, but the security of our Nation's borders is a worthwhile 
investment. It must constantly be remembered that the goal is not 
simply to hire more Border Patrol agents--the underlying reason for 
this build-up is the security of our borders. Every decision related to 
the hiring of Border Patrol agents must therefore reflect that 
overarching goal and purpose. Shortchanging this process will 
ultimately diminish the security of our Nation.

    Mr. Rogers. Very good. Thank you.
    And the Chair now recognizes Mr. Gary Jackson, President of 
Blackwater USA, for any statement you may have.

      STATEMENT OF GARY JACKSON, PRESIDENT, BLACKWATER USA

    Mr. Jackson. Thank you, Mr. Chairman.
    Congressman Meek, thank you.
    And I hope you heard my first part of my testimony, and I 
hope that my testimony is helpful to the committee in 
determining how we can most effectively train more Border 
Patrol agents.
    Our Border Patrol agents have a daunting, overwhelming task 
providing security for thousands of miles of border to prevent 
terrorist activity, illegal immigration, and drug trafficking.
    I look forward to discussing ways Blackwater may be able to 
assist in making this daunting task to secure our borders more 
effective.
    Blackwater was founded in 1997 from a clear vision of the 
need for innovative, flexible training, and security solutions 
in support of national and global security challenges. Both the 
military and law enforcement agencies needed additional 
capacity to fully train their personnel to the standards 
required to keep our country secure. Because these constraints 
on training venues continue to increase, Blackwater believes 
that the U.S. government would embrace outsourcing of quality 
training. We built Blackwater's facility in North Carolina to 
provide the capacity that we thought our government would need 
to meet its future training requirements.
    Over the years, Blackwater has not only become an industry 
leader in training but at the cutting edge in five additional 
business units. These units completely support the training 
center itself. They are target systems, security consulting, 
aviation worldwide services, canine services and Raven 
Development Group, which is a construction company.
    As we grew, we quickly realized the value to the government 
of one-stop shopping. While there are other companies who offer 
one or two distinct training services, none of them offer all 
of our services and certainly not at one location, except for 
FLETC.
    The importance of this cannot be overstated. Being able to 
conduct training at a centralized locality is the most cost-
effective, efficient way of ensuring that new federal law 
enforcement agents are trained to the level demanded by today's 
national and homeland security challenges.
    The Federal Law Enforcement Training Center, FLETC, can be 
proud of the way in which it recruits and trains our Department 
of Homeland Security law enforcement professionals. The sites 
at Glynco, Artesia, Charleston, and Cheltenham continue to be 
professionally managed, and when the scheduled renovations are 
completed, the FLETC network should be fully capable of 
providing the capacity needed to train the required numbers of 
agents.
    As a private firm, Blackwater is not in competition with 
FLETC. However, as a company of committed Americans, we are 
prepared to and fully capable of supporting the FLETC mission 
when surge capacity is required. We already enjoy a very good 
relationship with FLETC. Both of our organizations benefit from 
the wisdom of many retired military and law enforcement 
professionals, and we continually see people with whom we have 
worked and served with during our government service.
    Based on limited information, this is from me, sir, we have 
drawn up a rough order of magnitude as to what the costs would 
be to provide a turnkey solution to train 2,000 new Border 
Patrol agents at Blackwater. Again, on limited information that 
I have at our facility, that solution would cost approximately 
$40,000 per person for the 18-to 20-week course. Now, there is 
a 19-week course and a 20-week course. The course I am led to 
believe is a 19-week course utilizing a one-week transit.
    When I give that price, we are pricing a full burdened 
number that accounts for overhead, general and administrative 
expenses, and is based on what it costs for tactical driving, 
firearms, classroom training at our facility.
    Further, we believe it would take us approximately one year 
to train all 2,000 agents. Blackwater successfully conducts a 
similar public-private partnership with the Department of State 
to recruit, train, deploy and manage diplomatic security 
specialists in Iraq and other areas of interest.
    Securing our borders will continue to be a challenge for 
our nation. The urgency is clear: history repeatedly 
demonstrates that innovation and efficiency are what alter the 
strategic balance and Blackwater offers both in support of 
training of new Border Patrol agents.
    Just as the private sector has responded in moving mail and 
packages around the world in a more efficient manner, so too 
can Blackwater respond to CBP's emerging and compelling 
training needs. We are committed to supporting the United 
States, the Department of Homeland Security, the Customs and 
Border Patrol Service, and the Federal Law Enforcement Training 
Center in fulfilling their mission, in securing our borders, 
and keeping all citizens safe.
    I hope my brief comments have highlighted some of the 
alternatives available to most effectively augment our border 
security efforts, and I look forward to hearing your questions 
and observations.
    [The statement of Mr. Jackson follows:]

                   Prepared Statement of Gary Jackson

    Thank you Mr. Chairman, Congressman Meek, and Committees Members 
for the opportunity to explore with you concerns surrounding our border 
security. It is an honor for me to appear before you today. I hope that 
my testimony is helpful to the committee in determining how we can most 
effectively train more Border Patrol Agents.
    Our Border Patrol agents have a daunting, overwhelming task; 
provide security for thousands of miles of border to prevent terrorist 
activity, illegal immigration, and drug trafficking. I look forward to 
discussing ways Blackwater may be able to assist in making this 
daunting task to secure our borders more effective.
    Blackwater was founded in 1997 from a clear vision of the need for 
innovative, flexible training and security solutions in support of 
national and global security challenges.
    Both the military and law enforcement agencies needed additional 
capacity to fully train their personnel to the standards required to 
keep our country secure. Because the constraints on training venues 
continued to increase, Blackwater believed that the U.S. Government 
would embrace outsourcing of quality training. We built Blackwater's 
facility in North Carolina to provide the capacity that we thought our 
government would need to meet its future training requirements.
    Over the years, Blackwater (www.blackwaterusa.com) has become only 
an industry leader in training, but at the cutting edge in five 
additional business units: Blackwater Target Systems, Blackwater 
Security Consulting, Blackwater Aviation Worldwide Services, Blackwater 
Canine, and Raven Development Group.
    Blackwater is the nation's largest private tactical and firearms 
training facility. Our 6000 acre facility was ready when the country 
needed it. The bombing of the USS Cole in Yemen had sent a ripple 
through the U.S. Navy, and after the tragedy of September 11, 2001, 
that ripple was felt worldwide. The Navy appropriately responded 
realizing that in order to combat today's terrorist threat, all Sailors 
would need substantial training in basic and advanced force protection 
techniques. The Navy moved swiftly to create a sound training program, 
but realized that it did not have the requisite infrastructure or 
capacity to execute its plan.
    Because of our ability to support our government's emergent and 
compelling needs, Blackwater was selected in an open and competitive 
bid to assist the Navy and we now execute and manage that contract all 
over the country. Sailors the world over are now better prepared to 
identify, appropriately engage, and defeat would-be attacks on naval 
vessels in port and underway. To date, Blackwater has trained 
approximately 35,000 Sailors.
    As we grew, we quickly realized the value to the government of 
``one-stop shopping''. While there are other companies who offer one or 
two distinct training services, none of them offer all of our services, 
and certainly not at one location. The importance of this cannot be 
overstated; being able to conduct training at a centralized locality is 
the most cost-effective, efficient way of ensuring that new federal law 
enforcement agents are trained to the level demanded by today's 
national and homeland security challenges.
    The Federal law Enforcement Training Center (FLETC) can be proud of 
the way in which it recruits and trains our Department of Homeland 
Security law enforcement professionals. The sites at Glynco, Artesia, 
Charleston, and Cheltenham continue to be professionally managed and 
when the scheduled renovations and upgrades are completed, the FLETC 
network should be fully capable of providing the capacity needed to 
train the required number of agents.
    As a private firm, Blackwater is not in competition with FLETC. 
However, as a company of committed Americans we are prepared to and 
fully capable of supporting the FLETC mission when surge capacity is 
required. We already enjoy a good relationship with FLETC. Both of our 
organizations benefit from the wisdom of many retired military and law 
enforcement professionals and we continually see people with whom we've 
worked and served with in during our government service.
    Based on limited information, we have drawn up a rough order of 
magnitude as to what the cost would be to provide a turnkey solution to 
train 2,000 new Border Patrol Agents at Blackwater. That solution would 
cost approximately $40,000.00 per person for the 18-week course. That 
is a fully burdened number that accounts for overhead, general and 
administrative expenses, and is based on what it costs for tactical 
driving, firearms, and classroom training at our facility. Further, we 
believe it would take us approximately one year to train all 2,000 
agents.
    Blackwater successfully conducts a similar public-private 
partnership with the Department of State to recruit, train, deploy and 
manage Diplomatic Security Specialists in Iraq and other areas of 
interest.
    Securing our borders will continue to be a challenge for our 
nation. The urgency is clear. History repeatedly demonstrates that 
innovation and efficiency are what alter the strategic balance, and 
Blackwater offers both in support of training new Border Patrol agents.
    Just as the private sector has responded in moving mail and 
packages around the world in a more efficient manner, so too can 
Blackwater respond to the CBP emergent and compelling training needs. 
We are committed to supporting the United States, the Department of 
Homeland Security, the Customs and Border Patrol Service, and the 
Federal Law Enforcement Training Center in fulfilling their missions in 
securing our borders and keeping all citizens safe.
    I hope my brief comments have highlighted some of the alternatives 
available to most effectively trainng augment our borders security 
efforts and I look forward to hearing your questions and observations.

    Mr. Rogers. Great. I thank you both.
    At this time, I would like to ask for unanimous consent to 
post a board up that is an illustration of the Border Patrol 
agent level. Without objection.
    If you will look over here, you will see over the years 
what our level of agents has been. Currently, it is at 10,914. 
With H.R. 1817, it would go to almost 13,000, which I think you 
touched on that, Mr. Bonner, in your statement, the need.
[GRAPHIC] [TIFF OMITTED] 23097.001

    Let me ask you, aside from the infrastructure enhancements 
that you have referenced that we need and other enhancements as 
far as pay that deal with job satisfaction, would that level of 
agents adequately meet our Border Patrol needs in this country 
if we were to go to that 13,000 level?
    This is for Mr. Bonner.
    Mr. Bonner. No, I do not believe it would, not if we 
continue to pursue the current strategy. I believe that you 
could put hundreds of thousands of Border Patrol agents out 
there. As long as the employment magnet is switched on, people 
who are making $2 or $4 a day are going to continue to come 
across. These are very desperate people. That is why hundreds 
of them die crossing the deserts every year. They really have 
very little to lose. They will do anything to get into this 
country because they know that there is a pot of gold at the 
end of that rainbow; that being?
    Mr. Rogers. So you are saying there is no number of Border 
Patrol officers that can stop the flow of illegal immigrants 
into this country.
    Mr. Bonner. Not under the current strategy, sir. Now, I 
believe that if you combine this strategy with a strategy that 
turns off that employment magnet, then you could achieve it 
with probably about a doubling of our current workforce, 
allowing us to go after the roughly 2 percent of the traffic 
that is out there now who are criminals and terrorists who are 
breaching our borders. I believe that we could control that.
    Mr. Rogers. Go back to the training we talked about a 
little bit earlier. Do you believe that the 2,000 agents that 
we have authorized could be trained in the next 12 months with 
our existing infrastructure?
    Mr. Bonner. I believe so. I think the real bottleneck is 
that on-the-job training. I think that theoretically you could 
put any number of people through a basic academy, but you need 
that one-on-one mentoring very desperately in a law enforcement 
environment, and I think that about the most that you can 
reasonably do in any given year is to increase by 25 percent, 
and this is within that figure.
    Mr. Rogers. What steps could we take to better integrate 
these officers, these new officers in?
    Mr. Bonner. Well, I think it is not so much just a matter 
of integrating them in, but I think it is a matter of 
supporting them with the infrastructure so that you have enough 
support personnel so that they are not forced to do these jobs 
that you could actually be hiring someone in at a lower grade 
who wants to, for example, monitor a camera. This agent hired 
on to do a specific job, they wanted to be a law enforcement 
officer, and if they are stuck in one spot monitoring a camera 
or repairing vehicles, very soon they say, ``I think I am going 
to look for another job.''
    Mr. Rogers. Yes. You made the reference earlier in your 
statement that we need to be careful, not try to meet these 
Border Patrol officer levels on the cheap. Did you find--I know 
you were present for the first panel's testimony--did you find 
surprising the number of $179,000 to train each additional 
officer, not including FLETC's tuition?
    Mr. Bonner. I have not seen the breakdown, so I do not know 
what they are factoring into that. Now, if it factors in 
everything that you need, your vehicles, your share of the 
support personnel, I think the number would be low, but I do 
not know exactly what they are including.
    Mr. Rogers. You think $179,000 would be low?
    Mr. Bonner. Would be low if you are including the entire 
package. If when you hire a Border Patrol agent you say, 
``Okay, this is what it is going to take,'' you have to have 
your part of the communications network, including the radio 
dispatchers, the radio infrastructure, and you have to have 
your part of the vehicle that this person is going to drive, 
and you have to have your part of the weaponry and the uniforms 
and all that. I think that number would be low. But as I said, 
I have not seen a breakdown, so I do not know what all they are 
including in there.
    Mr. Rogers. All right. Let me shift gears a minute.
    Mr. Jackson, you talked about $40,000 being a figure based 
on the limited information that you have got that you could 
train these Border Patrol agents. Is that using the same 
curriculum, as you understand the curriculum, as currently 
offered?
    Mr. Jackson. Sir, as I did state in my statement, we have 
minimal information here. We understand it is about a19-week 
course. We did some due diligence. We understand that 7 weeks 
of it, probably 6, 7 weeks of law enforcement. You did mention 
in your statement about the firearms training. There is the 
firearms training, there is the driver training. There is a 6-
or 7-week Border Patrol operations training, which we are 
assuming is on-the-job type training under the basic school 
level.
    So what we did is we took our GSA, our Government Services 
Administration, validated pricing, utilizing the JFTR, the 
Joint Federal Travel Regulation, and tried to take that period 
of time, use it against the training that we do now for a lot 
of different government entities and basically came up with a 
rough order of magnitude for that period of time about a 20-
week course. It is fully burdened. That would be ammunition. 
That means we would provide the guns, we would provide 
everything for them, and they would basically supply us with a 
ready candidate on day one, and 19 weeks later we would hand 
back to the government a fully trained--.
    Mr. Rogers. Let me ask this question, then my time is 
running out. If we, as the Federal Government, were to offer 
you $100,000 per officer, could you assure us that you would 
give them equal or better training than they are receiving from 
FLETC?
    Mr. Jackson. Yes, sir, I could assure you of that.
    Mr. Rogers. Okay. I have got more questions, but I will 
wait until the next round.
    The Chair now recognizes the gentleman from Florida, Mr. 
Meek.
    Mr. Meek. Thank you, Mr. Chairman, and it is an honor, 
President Bonner, having you before the committee.
    Also, President Jackson.
    Mr. Bonner, I am familiar with your advocacy on behalf of 
the men and women in Border Patrol and we appreciate it.
    Mr. Jackson, I just want to let you know that you all run a 
very professional outfit. I have had an opportunity to see some 
of your people work firsthand, not only in Iraq but also in 
Afghanistan due to my visits abroad.
    Mr. Bonner, President Bonner, you mentioned something about 
Border Patrol agents and you said they are doing jobs that 
others can do. Can you elaborate on some of the positions that 
may exist already in the Patrol that those kind of individuals 
can handle the monitoring of television monitors, alarms that 
may go off? Can you elaborate a little further on how we can 
possibly get more of our men and women out doing the work of 
being a Border Patrol officer versus being in the office?
    Mr. Bonner. Well, for example, we have what are called law 
enforcement communications assistants who are supposed to be 
manning the radios, the cameras, the sensors. Unfortunately, 
when you do not have enough money to hire those people at a 
lower grade than you would hire a Border Patrol agent, then 
someone has to do that.
    You have immigration enforcement officers who belong to ICE 
now who are supposed to be handling all of the transportation 
of illegal aliens. But, for various reasons, one of which is 
the Border Patrol no longer controls these resources, so 
instead of just saying, ``Hey, we need you to go pick these 
people up,'' you have to make high-level calls and beg to have 
the work done. And, eventually, you just throw your hands up 
and say, ``We will do it ourselves.'' But then you are paying a 
journeyman Border Patrol agent at the GS-11 level to do 
something that could be done by someone at the GS-9 level.
    Mr. Meek. Which can hopefully put them back on, I guess, 
patrol.
    Mr. Bonner. Right. I mean, you have trained these officers, 
these Border Patrol agents to go out and enforce immigration 
laws, so you should be using them for that purpose. They should 
not be in a garage, for example, helping to repair vehicles 
because you do not have enough mechanics and not enough money 
in the budget to hire the mechanics. You should figure out a 
way to get those support positions filled so that you can free 
up all of your resources.
    I mean, at any given time, at the very best, we only have 
25 percent of that 10,700 agents working on the line, because 
we are running 3 shifts a day, 7 days a week. But when you 
strip away the people who are in support positions, at any 
given moment there are probably fewer than 2,000 Border Patrol 
agents out there protecting America.
    Mr. Meek. Okay. On the tail end of your answer there, I 
sure would appreciate if the counsel would put together some 
sort of white paper on how we can improve the efficiency of the 
Department, especially the Bureau, in being able to help the 
Border Patrol officers from having to carry out those kind of 
duties that you mentioned.
    I am pretty sure as we move forth in trying to put more 
agents on our borders that we can even increase that number by 
relieving those that are doing lesser duty and putting them out 
in the effort in protecting our borders. So if you can advance 
that to the committee, I sure would appreciate it, because it 
could be a part of the solution.
    One other thing I want to ask you, because I have to ask 
President Jackson a question quickly: Where are we losing our 
Border Patrol officers? Where are they going? That is one part 
of it.
    The second part is, what are the law--the chairman 
mentioned something a little earlier. If you are already 
trained in the area, 9 times out of 10 you already have your 
law enforcement certification, your Academy may be shorter than 
the average person that comes off of the street, because you 
are coming, one, under law enforcement experience, and you have 
a certification. That happens in many of our state law 
enforcement agencies and local law enforcement agencies.
    Where are we losing our men and women? I mean, we are 
training them and then they are going off and others are 
benefiting from it.
    Mr. Bonner. Historically, we lost most of our agents to 
other federal law enforcement agencies. We are seeing a trend 
now emerging where they are going off to the state and local 
law enforcement agencies as well. One of the reasons that the 
current attrition rate is relatively low is twofold: One, we 
have not hired that many people, and we lose most of the agents 
either during that first year or in the next couple of years.
    The--excuse me for just a second.
    Mr. Meek. Well, while you are taking a water break there, I 
am not going to--hopefully, President Jackson, I will get back 
to you, but is it true that when someone goes--let's say, for 
instance, an individual leaves from the Border Patrol and goes 
to the Federal Air Marshal Program. They do not have to go 
through the whole training experience all over again. Is that a 
correct statement would you believe?
    Mr. Bonner. When they did the air marshals ramp-up, they 
had a reduced course for those who had prior federal law 
enforcement training. One of the disturbing things is when we 
are hiring people back--such as I believe we hired about 400 of 
our Border Patrol agents back from the Air Marshal Program--
many of those agents were required to undergo the entire 19 
weeks of training, even though they had already done that just 
a few years prior to that. These were people that if the law 
had changed slightly, maybe a week refresher course and they 
would have been back up to speed. It was just a tremendous 
waste of resources and money.
    Mr. Meek. Well, Mr. President, I mean, I think you just 
answered the prevailing question that was asked by the chairman 
of the other panel. In many instances, these individuals are 
already trained, and they are being double counted, and I mean 
that is an extremely awful lot of money that this Congress is 
being told. Even on the rehire because you do have people that 
are coming back and you have people that are cross-pollinating 
through the federal law enforcement experience. They want to be 
a Border Protection officer, some may leave, I do not know, 
ATF, but they have that basic law enforcement training.
    Mr. Bonner. I think they could do much better, sir. I think 
they could figure out?make modules and say, ``Okay, you already 
know general arrest authority, you already know this, so we are 
going to give you a little bit of refresher on that and we are 
going to heavy up on the immigration law because you have never 
been taught that.'' But I think that is something that needs to 
be looked at.
    Mr. Meek. Thank you, Mr. Chairman, for the extended time.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from California, Mr. 
Cox.
    Mr. Cox. Thank you.
    Mr. Chairman, I would like to begin by asking Mr. Jackson 
the same question you asked him with a different figure. You 
asked him if he could provide thorough training for $100,000. I 
want to ask if you could provide thorough training for $32,000, 
because that is the figure, as I understand it, that we were 
just given by the first panel for the training piece itself, 
not including hiring, recruiting and so on.
    And when people come to you as surge capacity instructees, 
they have already been recruited and we are going to put them 
in the field and pay them at the government's expense, not 
yours. They will be paid in fact while they are taking 
training, so the comparable figure that we should be asking 
about, if I am not mistaken, is $32,000. Is that in the 
ballpark of what you could do?
    Mr. Jackson. Yes, sir. It is well in the ballpark, but I 
would then question what does the $32,000 cover? Again, I do 
not have the requirements. I do not know the specified 
requirements that the Border Patrol needs to get through that 
19 weeks of training.
    Mr. Cox. All right. So we may be asking you an unfair 
question in the sense that you have not been able to do a 
formal presentation of what you could do for X amount because 
they have not told you exactly what would be required.
    Mr. Jackson. If I knew what the requirements were. Does 
that include the officer's gun, his primary weapon and 
secondary weapon at the end of training? Does he walk away with 
that gun? I train a lot of people and I provide the weapons.
    Our prior performance, our number one prior performance on 
this type of evolution would be the U.S. Navy. The Navy came to 
us after the USS Cole and said, ``We cannot train our men and 
women, sailors, in firearms and force protection because we do 
not have any instructors left. So they came to us 3 years ago, 
opening a competitive bid. We did that, and we have trained 
about 35,000 sailors across the United States, in San Diego, 
San Antonio, Texas, Virginia and North Carolina. We do that for 
anywhere from 1-to 3-week types of courses. They gave us the 
curriculum, here is the curriculum, the U.S. Navy curriculum, 
and said, ``This is exactly what you will teach,'' and that is 
exactly what we did.
    They provide us with a qualified person on Monday morning, 
and we provide them with a fully certified student, graduated 
on either the first, second, or third week depending on how 
long the course is. Utilizing our GSA, our costing models, that 
is how I came to you with that number. So what are the 
requirements for a 19-week course? I do not know the exact 
specified requirements, though. If they gave that to me, I 
could come back to you with a detailed pricing, but it would 
cost as an outsourced solution.
    Mr. Cox. But you are certainly interested in pursuing that 
option?
    Mr. Jackson. We are always interested in pursuing--helping 
the U.S. government. That is what we do. I have a medium-sized 
company with a lot of--probably 90 percent of our staff is 
former law enforcement or former military, anywhere from the 
minimum 4 years to the maximum 30-something years in service. 
We have 1,300 people working for Blackwater around the world 
today, and, again, probably somewhere around 85 to 90 percent 
of those people are former something U.S. government, and that 
is what we do.
    Mr. Cox. Mr. Bonner, you certainly appreciate what we want 
this training to produce. You know what we really need on the 
job.
    I am intrigued by the interchange you just had with Mr. 
Meek about your interest in modules for training that might 
take advantage of different levels of preparedness that 
trainees bring to their basic training.
    The Government Accountability Office when it reviewed FLETC 
operations said that it was not really taking advantage of 
alternative instructional methods, including e-learning. Do you 
think there is any opportunity, particularly on the legal side, 
for that kind of training?
    Mr. Bonner. I am sorry, which kind of training was that?
    Mr. Cox. E-learning; that is to say distance learning, 
Internet and so on. Is it possible that for the book learning 
part of this the Internet could be one means of reducing the 
cost?
    Mr. Bonner. It is a possibility, but one of the concerns I 
have at this level of a person's career is part of what you are 
doing is evaluating that person to make sure that they have the 
right stuff to be a federal law enforcement officer. You just 
do not want to give anyone a badge and a gun and arrest 
authority and throw them out there, because that would be an 
invitation to disaster. Probably more important in that is that 
on-the-job training would occur when they get back from the 
Academy where you are really scrutinizing--.
    Mr. Cox. I could not agree with you more. In fact, what I 
would like to see is the training being more focused on that 
aspect. I am concerned that we are placing a significant 
emphasis on the very rudimentary parts.
    Mr. Bonner. I could not agree with you more. One of the 
things that has troubled me for a long time is the fact that 
the Border Patrol goes through the pretense of firing people 
based on suitability through their 6-and 10-month law and 
Spanish examinations and artificially lowers the number to get 
rid of people when they should just tell them, ``Look, you are 
not working out. Based on what we have seen out in the field, 
you are just not working out,'' and they do not really need a 
reason.
    And that is the current state of civil service law. You can 
fire someone within that first year based on that gut feeling 
you have that they are just not going to work out. And they 
would be doing a favor to these people instead of saying, ``You 
know, you got a 69.99 on the Spanish test. You almost made it. 
Have a nice life.''
    Mr. Cox. Well, I thank you, Mr. Chairman. My time is 
expired.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the ranking member from 
Mississippi, Mr. Thompson, for any questions he may have.
    Mr. Thompson. Thank you very much.
    Mr. Bonner, one of the discussions that we have constantly 
had to address here is with respect to how Border Patrol 
relates to other law enforcement officials, and you will have 
some members of Congress who would like to see some of that 
responsibility passed on to local law enforcement through some 
kind of training component, reimbursement component. What has 
been the experience of the Border Patrol along those lines with 
other law enforcement? Do they want to get involved in those 
issues or would they rather see it remain at the federal level?
    Mr. Bonner. Most law enforcement officers that we interface 
with at the state and local level would like to have limited 
authority to deal with situations where they feel it is 
appropriate to take action, but they do not want to become 
full-time immigration law enforcement officers, especially in 
communities that have a very large percentage of illegal 
immigrants, because it would just tie up all of their resources 
and prevent them from going out and doing the other aspects of 
their work, such as protecting the citizenry.
    Mr. Thompson. Mr. Jackson, you know, when you look at the 
numbers that you have presented to us today, to be quite honest 
with you, they are startling, going from $40,000 to somewhere, 
$179,000 or $180,000. And if I glean from your testimony, as 
someone in the private sector, you would not be adverse to 
having the opportunity of training any of these law enforcement 
personnel for these various responsibilities.
    Mr. Jackson. No, sir. We are standing by.
    Mr. Thompson. And have you approached any of these agencies 
with this offer up to this point?
    Mr. Jackson. Not on this particular requirement. But over 
the years, we are 8 years old and we have approached many, many 
entities on giving them different solutions. And we do a lot of 
them today. Again, we do the Navy, we have the Department of 
State. These are major, major programs that we run today.
    Mr. Thompson. Well, if the Border Patrol module could be 
provided to you and you could cost it out and you could come 
back and say for one-half of what you are presently spending I 
could give you that same individual that would meet every 
qualification or requirement that is presently put in this 
manual, so you are saying you could do it.
    Mr. Jackson. There is absolutely no doubt that we could do 
it. I would say to you, sir, that we are probably the only 
private company in the United States today that could do that. 
And the reason I say that is we are really the only private 
company in the U.S. that has a 6,000 acre private training 
facility of a--maybe not on the FLETC standard because it is 
not paid with taxpayers' money--it is on our standard. It is on 
a very, very high standard, and we are training tens of 
thousands of people every year. These are everybody from your 
tier one, your best of the best of the military, to your best 
of the best of the federal law enforcement.
    Mr. Thompson. Mr. Bonner, are there any lateral transfers 
into the Border Patrol under existing standards, to your 
knowledge? In other words, if I am in another federal service, 
am I allowed to transfer?
    Mr. Bonner. You are allowed to transfer, but they will make 
you go through the entire 19-week Border Patrol Academy. Even 
if you are a--let's say you are a 20-year veteran with all 
kinds of commendations, they will still make you go through the 
entire 19-week Border Patrol Academy.
    Mr. Thompson. Thank you very much.
    Mr. Rogers. Thank you.
    The Chair now recognizes the gentlelady from Texas, Ms. 
Jackson-Lee, for any questions she may have.
    Ms. Jackson-Lee. I thank the chairman and I thank the 
Ranking Member for this hearing, and I thank the witnesses.
    I apologize for being delayed. I was in a Judiciary 
Committee hearing on the other side of the campus, but this is 
a very important hearing and raises a very important question. 
I think some weeks ago, Mr. Bonner might have been present, I 
raised issues about the largeness of the Homeland Security 
Department--180,000 strong that may speak to some of the 
concerns being expressed about the question of capacity.
    And capacity for me is equal to security and equal to the 
securing of the homeland, the ability to provide the resources 
on an ongoing basis. I am still committed to the 9/11 
authorization bill, which authorized 2,000 Border Patrol agents 
per year, as I understand, over a 5-year period and 800 ICE 
agents over a 5-year period.
    I want to just raise the comments of Connie Patrick to 
frame my question and also to provide some insights on how 
crucial I think or what a state of crisis we are in without 
putting crisis and alarmist together but that we need to move 
energetically. That is why I compliment the chairman and the 
Ranking Member of the subcommittee and the chairman and Ranking 
Member of the full committee, because I think their efforts 
have really focused on the urgency of the work of the Homeland 
Security Committee.
    But, Ms. Patrick said over the years FLETC has experienced 
periods of substantial growth in the training requests by its 
partner organizations. Using innovation and imagination to 
maximize these resources, these increases have been 
accommodated. That ability continues. But at the close of that 
paragraph, she said, ``However, extraordinary measures, such as 
a 6-day training work week, are difficult to sustain, take a 
toll on both staff and facilities and are costly.''
    In the last 24 hours in Houston, a federal law enforcement 
organization was able to capture an individual who allegedly 
came to Houston under the pretense of meeting with Al-Qa`ida to 
sell them a bomb-making formula or to sell them a bomb. I think 
that says to us in the backdrop of the near scare that we had a 
couple of weeks ago of a Cessna that seemed to have broken 
through all of our security here in Washington, D.C., that 
homeland security should be a very high level of concern.
    I also add my concern of giving a sense to the American 
people that they have got to do it themselves. I point out the 
minutemen. Today, in Texas, a number of state legislatures have 
asked the minutemen through all of their patriotism to stay 
home, because Texas poses, even though I know many of us have 
indicated and respect their concern and their patriotism, but 
they can create a volatile situation on the border for 
untrained, unauthorized individuals.
    My question to both of you would be, is the issue of not 
being able to have the capacity to train an overall management 
issue of an overly big corporation, such as the Department of 
Homeland Security? And in the course of just a side question, 
does the federal training also have training in languages such 
as Spanish?
    Mr. Jackson, do you have capacity in your training?
    But, Mr. Bonner, in particular, are we overwhelmed by the 
largeness of the department. Should we have a narrow training 
facility that deals specifically with training of border patrol 
agents and not have this sort of comprehensive hand that does 
law enforcement, maybe local and state involvement, but really 
focused because we say that homeland security is a priority. 
Should that not be separated out, distinguishable in order to 
secure the homeland?
    I thank the gentleman, and I would appreciate an answer 
from Mr. Bonner and Mr. Jackson.
    Mr. Bonner. The Border Patrol does have its own unique 
training facility, which was incorporate by FLETC back in 1977, 
I believe. It has managed to maintain pretty much an 
independent role there, although there are some courses that 
FLETC oversees.
    Probably the biggest mistake that the Border Patrol has 
made of late is one that was not so much their doing but a 
political consideration: moving from Charleston out to Artesia. 
I do not believe that community has the infrastructure to 
support that large of an operation, and, certainly--and this is 
no slam on the Chamber of Commerce there--it is not something 
as enticing as, say, Charleston, South Carolina or the St. 
Simons Island near Brunswick, Georgia where you want to take 
your family while you go instruct for 6 months to bring them 
out into the middle of nowhere in Artesia, New Mexico.
    That presents a challenge. We need to look at different 
ways of doing things if we are going to step up and meet the 
challenge of training, not just these 2,000 but the bill, the 
9/11 bill calls for 2,000 agents being trained every year for 
the next 5 years. And I think that is really a minimum figure 
if we want to secure our borders. We need to train as many 
people as possible, so we need to look at different ways of 
achieving that goal.
    Mr. Jackson. Ma'am, again, I came today to say that I could 
help FLETC if their capacity was not--if they were not prepared 
for that emerging and compelling capacity. We are prepared to 
do that. We have grown over the last 8 years utilizing a 
modular system, and, again, I have heard modular a couple of 
times a day. We use a modular system and it is scalable. It 
scales up, it scales down.
    We are prepared to scale up to support a FLETC Border 
Patrol emerging and compelling requirement if that was 
requested of us. And we also are prepared to go forward and we 
could sustain that through a longer period of time if that was 
required.
    Ms. Jackson-Lee. Can I ask the gentleman just an indulgence 
on the question I asked about Spanish language training? Do you 
have that capacity?
    Mr. Jackson. Oh, yes, ma'am. We have every capacity that--
not to sound big-headed here, but we have every capacity that 
the Federal Law Enforcement Training Center has. We work with a 
lot of the exact same people. We work with the exact same 
technologies. We understand e-training. We are working some 
federal programs right now with these e-training distance 
learning through the Internet, or law enforcement training 
people. So, yes, ma'am, we are completely prepared for that.
    Ms. Jackson-Lee. Mr. Chairman, if I might, I guess, inquire 
both of you and the Ranking Member and also imposing it. As I 
listened to Mr. Bonner, and I did not hear his earlier 
testimony and scanned his written testimony, but I would hope 
that in this hearing we are looking at giving the Border Patrol 
agents greater capacity for training Border Patrol agents.
    And I am not sure whether we are looking to give them an 
opportunity to be trained elsewhere. I just think their mission 
is so unique that it is important that they are trained by 
those who know the uniqueness of their mission. Both northern 
and southern border and. Also the teaching of their technology 
that I hope that they will be getting is particularly specific.
    Mr. Bonner, are you looking to be trained elsewhere or you 
want more capacity in your own training facility?
    Mr. Bonner. I think that in order to entice instructors who 
are fully qualified and highly motivated, I think we need to 
explore other locations beyond Artesia, and I concur with you 
that there are parts of that training where it is very critical 
that we have Border Patrol agents, people who have actually 
been there, done that instructing.
    There are other parts that are not as critical, but 
certainly some parts, especially when it comes to immigration 
law and Border Patrol operations, where you just cannot teach 
that to an instructor. You cannot incorporate that into a 
module, because you have that interface with those trainees and 
those students. And talking to them not only during the class 
but after class so that they can understand the culture of the 
Border Patrol and the mission of the Border Patrol and that 
they assimilate those important considerations.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman.
    Thank the Ranking Member.
    Thank you.
    Mr. Rogers. Thank you.
    I want to follow up and make sure I understand what you are 
saying. Do you believe--maybe this is what Ms. Jackson-Lee was 
getting at--do you believe that we can comparably train these 
people outside the existing Border Patrol infrastructure if it 
is through a private contractor or maybe a major university 
with a law enforcement department.
    Do you believe that you could get a product out of that 
infrastructure that would be satisfactory to you?
    Mr. Bonner. I think there are parts that could be 
contracted out, but I think there are other parts that have to 
be taught by Border Patrol agents.
    Mr. Rogers. Okay. Are those part--you know, we heard 
earlier in the first panel that there was a 5-month, 19-week 
training program that was kind of on campus, and then another 5 
months after that, there was training in the field. Do you 
believe that the 5-month on-campus training could be contracted 
out pretty readily?
    Mr. Bonner. Only certain parts of it. There are other parts 
that I believe would have to have Border Patrol agents as the 
instructors. Now, I mean, one of the things that they have done 
now is rehired annuitants, bringing them back to instruct--
people who served an entire career with the Border Patrol and 
that is something that could be explored.
    Mr. Rogers. So if the contractor or university were to hire 
as part of their faculty former Border Patrol officers, do you 
believe, do you believe the end product would be just as good 
as what you are receiving from the current infrastructure?
    Mr. Bonner. I believe it would be close. I am not sure that 
it would be quite to the level, because I do not believe there 
is any substitute for active field agents who are out there 
confronting the problems every day and who can pass along some 
of what they have gleaned over their careers.
    Mr. Rogers. You talked earlier about the need, in your 
view, for us to really pay more attention to what it is going 
to take to retain our Border Patrol officers: compensation, 
benefits, as well as infrastructure enhancements. When looking 
to the Congress, if we can find a way to prudently and 
effectively train these officers at a fraction of what is being 
suggested here, don't you believe a significant amount of that 
money we could direct to compensation?
    Mr. Bonner. I am real unclear when they threw out these 
numbers of $179,000, $189,000--what all is going into that mix.
    Mr. Rogers. That makes several of us.
    Mr. Bonner. Yes. If they are including your equipment, your 
facilities, and your support personnel, your communications 
devices, all of these things that are really necessary to do 
the job, then the number does sound unreasonable, in fact it 
sounds a little low. Now, if they are just talking about the 
cost of a half-year salary and the actual training, then it 
sounds very high to me.
    Mr. Rogers. Let me skip to Mr. Jackson real quick. You 
talked earlier in your introductory remarks that you have a 
very complimentary relationship with FLETC. You work together 
and you are there more to help supplement or enhance any 
capability requirements that might exist. Has your company in 
the past ever had any contractual relationship with FLETC that 
was in fact a supplemental or complimentary relationship?
    Mr. Jackson. No, sir, not supplemental in the training 
side. We have on the target side, on a few other issues, we 
have done some work. We were down there as little as 2 weeks 
ago. Again, not on the training side, plus he is been able to 
handle their load.
    I would just like to mention, Ms. Jackson-Lee, there were a 
couple of issues there that were going around. One was the 
facilities. Facilities today are very, very expensive, as I am 
sure you guys well, well know. There is one out there right 
now, a Department of State cask facility. It started at $55 
million 2 years ago and 3 years ago. It is at somewhere between 
$600 million and $900 million today in Aberdeen, Maryland.
    When you start talking about building new facilities to 
have some place to train here because it is this kind of?the 
reason that the FLETC has waited, the reason that Blackwater 
has waited is we bring those people to our position and we try 
to get everything that we can get done done there. Start moving 
people all around the country, flying them in, flying them out, 
put them on buses doing this, you lose travel days, you lose a 
lot of training time.
    The 19-week course, again, sir, I do not know exactly what 
the curriculum looks like. Should it be 19 weeks? I am 
listening to Mr. Bonner here. Should it be 19 weeks? There is 
the first thing that somebody needs to look at. Does it really 
need to be 19 weeks long?
    As a private company, we hire former Border Patrol agents 
to do our instructing to Border Patrol personnel. If we are 
going to do FBI training for HRT, we hire former FBI HRT 
personnel to teach that. We do not use law enforcement to teach 
military, we do not use military to teach law enforcement. That 
has been our mantra since the day we opened up, and that is 
what we are doing today.
    Mr. Rogers. Thank you very much.
    Do you have any additional questions?
    I yield to the gentleman from Florida, Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman, and I once again want to 
say that this hearing is very informative to me but I know also 
to the committee.
    President Jackson, I did not have an opportunity to ask you 
the questions that I wanted to ask you. Did share with you that 
I know that you are able and you are very good. We are not in 
competition. But, you know, competition is good sometimes. I 
mean, the U.S. Postal Service is what it is today because of 
competition.
    And I was in the state legislature before I got to 
Congress, and there was always a concern about privatization 
and the private sector and the good and bad that comes along 
with that. But as it comes down to the protection of the 
homeland and your company is an exception to the rule and 
companies like it of being able to help this country meet its 
objectives as it relates to protecting the homeland. So I do 
not think that is anything that you need to worry about your 
colleagues questioning in the law enforcement community, your 
integrity of making sure that we commend what we have in place 
now. But we want to continue to compliment.
    So I want to just ask you just a round of questions that 
maybe you can help clarify, because I believe this committee, 
like it or not, we are going to have to play a role in how we 
do business, because from what I am hearing and what I have 
read and what I have received from the Department, it is not 
necessarily something that I feel quite comfortable with at 
this point. And that is the reason why on the last panel I 
asked a question of the individuals that are in charge, the 
Deputy Commissioner, Chief of.
    Do we have a new way of thinking and training? I mean, are 
we just looking at it in a way because this is the way we have 
always done it? And so that is where I believe you come in.
    I want to ask you, as it relates to the State Department 
security agents, how many of those agents have you trained thus 
far, and how many have you have at one time in training at your 
6,000 acre facility?
    Mr. Jackson. We are averaging today at Blackwater training 
multiple units, usually between 10 and 15 units a day, 
averaging this year for Monday through Friday, 450 students a 
day, every day, day in and day out, another 100, 150 over the 
weekend, every single day. We bus them in, we drive them in, 
they live at our property, however they get there, about 450 
students every day. Our capacity right now would be 1,000 
students a day, which is--we have got some mid-term goals to 
get there.
    Mr. Meek. Okay. You are doing training but you also provide 
services as it relates to the State Department and the 
military. I know that you are doing some things in Iraq. It is 
giving an afterlife to many of our men and women that are in 
the specialty areas, special forces. I was down in Central 
Command and they know that you are quite effective in 
recruiting some of their guys over to Blackwater.
    Do you see any future, not just for your company but 
companies like your company that may very well see a market in 
this, getting into the issue of border protection?
    Mr. Jackson. Well, sir, listening to those numbers of pay 
for starting Border Patrol agents, with those types of numbers, 
I can put as many men together as you need, trained and on the 
borders.
    Mr. Meek. Okay. I want to ask this question because I am 
not?my history in public service is not really one that pushed 
privatization. I have some questions as it relates to the TSA 
and the privatization project that they have there, but I would 
much rather deal in a way to be able to let the Department know 
in this hearing and also get the information with the 
Department for those men and women that are in uniform trying 
to do the things that they can do, because I believe that when 
it comes down to protecting the homeland that there is room for 
innovation. There is room for us to be able to look at 
hopefully getting a bigger bang for our buck.
    And it is interesting that you would be on the same panel 
with Mr. Bonner who may have another view and another opinion 
as it relates to that. And I mentioned in the last panel that 
we have a third tier here. Well, I guess we are the third tier, 
as elected citizens representing the taxpayers of the United 
States. And now we have citizens that are kind of saying, 
``Well, I know I am paying taxes, I am retired, ex-military, 
what have you, but I am going out to protect my border.''
    Now, Ms. Jackson-Lee time after time mentioned the fact 
that those that are in elected service on a bipartisan level, 
but, please, we thank you but do not do it. We have that. That 
is not going away in my opinion. It is going to continue. I do 
not care what we tell people. So that means we have to reform 
ourselves. So I am very interested in how we are going to 
proceed from this point, and both of you are going to be very 
helpful in that process in providing us some very accurate 
information.
    The last thing that I would want to do, Mr. Chairman, is 
set the stage, an uneven stage, that would put the Department 
in a posture where it is not on equal footing of the private 
sector if we are going to start to legislatively, respectfully 
introduce the private sector into protecting our borders and 
homeland. That is just my 2 cents that I want to put into this, 
but I think it is very, very important.
    Mr. Bonner, I look forward to receiving that information 
from the Council on how we can use assistance or you 
mentioned--I am sorry, I wrote it down on another page--those 
individuals that can take over monitoring and transportation of 
individuals that are apprehended.
    And Mr. Jackson, please feel free to share with me and 
other members of the committee on how Blackwater USA can serve 
in the capacity of protecting our borders and training and in 
other areas so that we know exactly what we are doing. But we 
are very serious about this, because all we need is one or two 
incidents to have us legislating in haste and then we do not 
get what we want.
    And so, Mr. Chairman, we have had more subcommittee 
hearings than I thought we would have, and I would like to 
thank you for--than we would have had in this entire Congress, 
but I am glad that we are starting to look at the finer details 
of the Department to be able to help the Department make itself 
better and protecting the homeland. So I look forward to 
working with you and not only members of our panel but our 
other colleagues in making sure that we do what we need to do 
for the American people.
    Thank you.
    Mr. Rogers. I thank the gentleman.
    Ms. Jackson-Lee, do you have any additional questions?
    Ms. Jackson-Lee. I do, as the Ranking Member did, Mr. 
Chairman, and have some concluding remarks and make sure that I 
just pose another question to Mr. Bonner.
    Mr. Jackson, I think all of us who have advocated in 
different committees the importance of American businesses and 
business being done on our soil and you are doing that, we are 
certainly interested in the resources that you have and the 
partnerships you have already established.
    Might I just, as an aside, hope that you are--I think you 
are in North Carolina, if I am not mistaken. You are in a 
university state. I hope that you are interfacing with some of 
the training techniques or opportunities with some of our 
colleges. I would suggest historically black colleges and 
Hispanic-serving colleges just because there are resources 
there. There are also people there, potential trainees, that 
may be of value. I hope that there is some partnership going 
there.
    But I think that Mr. Meek has made a very valuable point 
along with Mr. Rogers on this whole issue of capacity and doing 
it the right way, not doing it the wrong way. I just heard 
another statistic about the percentage of Americans who said, 
``Yes, we need military at the border.'' That may speak to my 
distinguished Ranking Member's comment that people are going to 
do what they want to do. If they do not see military at the 
border, and they are thinking they need to go themselves. So 
maybe 2,000 is not even enough.
    And finding ways to share even the training might be an 
approach to take, and I am interested in that. But, again, I 
emphasize, I think, the idea of online Border Patrol agents and 
ICE agents are the best to train their fellow men and women, 
and I do not want to get away from that.
    Mr. Bonner, tell me if you can just clarify, you seem to 
suggest that you have a bad facility and you need to have 
either a new location or an enhanced facility or somewhere else 
that would encourage individuals to transfer over or to apply 
for the first time to be Border Patrol agents which then ups 
your numbers. Is that what I was hearing that is one of the 
solutions that you are offering today?
    Mr. Bonner. The concern I have is with attracting the 
qualified and motivated instructors. You can train someone for 
that 19-week period and it really does not matter where they go 
because that is just 19 weeks of their life. They are brand new 
and they do not know that from anything. It is a question of 
can you entice people.
    And the last thing you want to do is force someone to take 
a Border Patrol agent and say, ``We are forcing you to go there 
to be an instructor.'' They are doing that now, and regardless 
of whether it is consciously or unconsciously, that is going to 
rub off. That dissatisfaction will rub off on those very 
impressionable new hires when this person gets up and says, 
``Boy, this outfit has treated me terribly,'' and they go, 
``What did I get myself into?''
    So you want a place where people want to go. As I said 
before, this is not a slam on the good people or Artesia, but 
the infrastructure simply is not there to support such a large 
expansion. Perhaps they need to look at finding facilities 
elsewhere.
    Ms. Jackson-Lee. But you do believe that we have a capacity 
in the United States to find individuals that would either 
transfer and/or for the first time be interested in Border 
Patrol agents.
    Mr. Bonner. We have no shortage of people wanting to apply 
to be Border Patrol agents. Our problem is hanging on to people 
once they come over and we mistreat them; either with the low 
pay or some of the personnel regulations that are now being 
implemented that strip away their rights and protections. And 
these things are factors that are going to drive good people 
away from federal service, and we have to look at all of these 
things to make sure that not only do we attract the best and 
the brightest, but that we manage to hang on to them.
    Because it is a very expensive proposition to train 
someone. We should not just be a springboard for all of these 
other federal, state and local agencies. I mean, the training 
is top-notch, and all of these other agencies are more than 
willing to hire Border Patrol agents.
    Ms. Jackson-Lee. We need to be able to retain them.
    Mr. Bonner. Exactly.
    Ms. Jackson-Lee. Let me thank the chairman and the Ranking 
Member and Mr. Jackson as well. Maybe we can find common ground 
on working together.
    Chairman I would also offer that we could do this for the 
Transportation Security Administration. I would venture to say 
to you that they need some training. And for those of us who 
are consumers of their lack thereof on a regular basis, this 
might be the committee where we have them come in and give us--
and I support TSA. I support the process or that structure that 
we now put in place, but I would welcome the opportunity for us 
to help them fix the training and the recruitment and the need 
for greater professionalism in order to do the nation's work.
    I thank both gentlemen. Thank you.
    I yield back.
    Mr. Rogers. I thank the gentlelady.
    And I want to thank our witnesses for their testimony and 
I, thank the members for their questions.
    We would like to let you know some of the other members who 
were not here may have some questions they would submit to you. 
We are going to keep the record open for the next 10 days, so 
if somebody does submit a written question, I would ask you to 
make a written response to that.
    And with that, we stand adjourned.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                 Questions and Responses for the Record

     Questions from the Honorable Mike Rogers for Connie L. Patrick

    Question: Of the 19 training weeks, (1) what is involved; (2) who 
teaches each course?
    Answer: The U.S. Border Patrol (USBP) Training Program is a 747-
hour/91-day curriculum that includes course work in law and Spanish, as 
well as Border Patrol operations training, firearms training, physical 
training, and drivers training. The curriculum requires some 2,652-
instructor hours to deliver. Federal Law Enforcement Center (FLETC) 
instructors, some of whom are rehired annuitants with USBP experience, 
teach the courses.

    Question: Can we get the syllabus and course descriptions and 
schedule of classes?
    Answer: The program syllabus and Schedule of classes for the US 
Border Patrol Integrated Basic Training Program are attached as an 
electronic file.

    Question: What would be the total cost of training 2,000 additional 
agents at Artesia.
    Answer: FLETC estimates the total cost would be $61,645,535. 
Additional cost information is provided in the table that follows.

  Additional FLETC Cost for Increased Border Patrol Agent Training 700
                       Attrition in Budget Base <SUP>1</SUP>
                           Salary and Expenses



Basic Training Tuition (40 classes, 2,000 students)....      $11,507,240
\1\ The FLETC budget for Fiscal Year 2006 already
 includes funding for 700 students, which is considered
 currently to be U.S. Border Patrol's attrition.
Instructors (66 FTEs)..................................        5,810,885
\2\ Temporary facilities include, but are not limited
 to, modular classrooms, office space, breakout rooms,
 computer and Spanish lab, sewer enhancements.
S&E Subtotal...........................................      $17,318,125
\3\ The temporary facilities requirement is reduced by
 $1,882,000, which was provided in chapter 2 of the
 Emergency Supplemental Appropriations Act for Defense,
 the Global War on Terror, and Tsunami Relief, 2005,
 Public Law 109-13, 119 Stat. 231,270.

Acquisition, Construction, Improvements and Related....
  Expense..............................................

Temporary Facilities/lnfrastructure,<SUP>2,3</SUP>................       $8,237,410
\4\ One-time construction cost.
Aquatic Training Center <SUP>4</SUP>..............................        3,000,000
\5\ One-time construction cost.
2 350-room Dorms <SUP>5</SUP>.....................................       33,000,000
ACI&RE Subtotal........................................      $44,327,410

TOTAL..................................................      $61,645,535


    Question from Congressman Bennie Thompson for Connie L. Patrick

    Question: Can you provide training costs for each of the other 
agencies that train at FLETC?
    Answer: This information is attached as an electronic file. 
(Maintained in the Committee's File.)

                 FEDERAL LAW ENFORCEMENT TRAINING CENTER
                         Basic Traininq Programs

                       Program                              Acronym

Basic Police Officer Training Program................              BPOTP
Customs and Border Protection Integrated.............               CBPI
Criminal Investigator Training Program...............               CITP
Federal Air Marshal Training Program.................              FAMTP
Immigration and Customs Enforcement Detection and                 ICE--D
 Removal.............................................
Mixed Basic Police Training Program..................              MBPTP
United States Border Patrol Integrated...............              USBPI
United States Marshals Service Integrated............              USMSI
Land Management Police Training......................               LMPT
Air Force Office of Special Investigations...........           AFOSI FB
Air Force Office of Special Investigations, Pre Basic           AFOSI PB
Alcohol Tobacco and Firearms, Special Agent Basic               ATF SABT
 Training............................................
Alcohol Tobacco and Firearms, Industry Operations              ATF IOITP
 Investigator Training Program.......................
Administrative Office of the United States Courts,          AOUSC APPSTP
 Abbreviated Probation & Pretrial Services...........
Basic Corrections Officer Training Program...........              BCOTP
Basic Juvenile Corrections Officer Training Program..             BJCOTP
Bureau of Prisons Basic Training Program.............              BOP P
Basic Telecommunications Officer Training Program....              BTOTP
Customs and Border Protection, Basic Import                     CBP BISA
 Specialist A........................................
Customs and Border Protection, Basic Import                     CBP BISB
 Specialist B........................................
Customs and Border Protection, Spanish Training                  CBP STP
 Program.............................................
Central Intelligence Agency, Special Police Training            CIA SPTP
 Program.............................................
Citizenship and Immigration Service, Applications                CIS AAB
 Adjudications Basic.................................
Citizenship and Immigration Service, Asylum Center              CIS ACAO
 Adjudications Officer...............................
Citizenship and Immigration Service, District                    CIS DAO
 Adjudications Officer...............................
Citizenship and Immigration Service, Immigration                 CIS II0
 Information Officer.................................
Citizenship and Immigration Service, Immigration               CIA OAFTP
 Officer Anti Fraud..................................
Defense Criminal Investigative Service, Special Agent           DCIS SAB
 Basic...............................................
Environmental Protection Agency, Environmental                   EPA EIB
 Investigations Basic................................
Food and Drug Administration, Special Agent Training            FDA SATP
 Program.............................................
Federal Protective Service, Pre Basic................             FPS PB
Federal Protective Service, Follow On................             FPS FB
Immigration and Customs Enforcement, Basic                       ICE BIT
 Intelligence Training Program.......................
Immigration and Customs Enforcement, Equivalency                 ICE ETP
 Training Program....................................
Immigration and Customs Enforcement, Special Agent               ICE SAT
 Training Program....................................
Immigration and Customs Enforcement, Technical                  ICE TEOS
 Enforcement Officer School..........................
Inspector General, Investigator Training Program.....             IG ITP
Internal Revenue Service Criminal Investigations, Pre            IRSC PB
 Basic...............................................
Internal Revenue Service Criminal Investigations,               IRS SABT
 Special Agent Basic Training........................
Naval Criminal Investigative Service, Basic                   NCIS BIOTP
 Intelligence Officer Training Program...............
Naval Criminal Investigative Service, Special Agent            NCIS SABT
 Basic Training......................................
National Marine Fisheries Service, Basic Agent.......            NMFS BA
National Park Service, Pre Basic.....................             NPS PB
National Park Service, Ranger Basic Training Program.           NPS RBTP
Treasury Inspector General Tax Administration,                TIGTA SABT
 Special Agent Basic Training........................
United States Marshal Service, Abbreviated Basic                USMS APB
 Deputy..............................................
United States Marshal Service, Detention / Aviation              USMSDEO
 Enforcement Officer.................................
United States Marshal Service, Deputy United States            USMS DUSM
 Marshal.............................................
United States Park Police, Follow On Basic...........            USPP FB


                                 <all>

</pre></body></html>
